<html>
<title> - TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                      WEDNESDAY, OCTOBER 28, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Susan M. Collins (chairman) 
presiding.
    Present: Senators Collins, Blunt, Boozman, Daines, Reed, 
Feinstein, and Cochran.

  Unmanned Aircraft Systems and the Steps Being Taken to Successfully 
      Integrate This Technology Into Our National Airspace System


             opening statement of senator susan m. collins


    Senator Collins. Good morning. The subcommittee will come 
to order.
    Today, we are holding a hearing to discuss the use of 
unmanned aircraft systems, also known as drones, in our 
national airspace. I want to welcome our three witnesses, 
Federal Aviation Administration (FAA) Administrator Michael 
Huerta; Marty Rogers, the deputy director of ASSURE, which is 
the Alliance for System Safety of UAS through Research 
Excellence, a long title there, based at Mississippi State 
University; and Captain Tim Canoll, the president of the Air 
Line Pilots Association, who has brought with him one of the 
more popular drone models sold today for recreational use. This 
is the same kind of drone that landed on the White House lawn 
last year.
    There have been a number of troubling incidents with drones 
coming in close proximity to aircraft flying near our Nation's 
airports, as well as other dangerous instances affecting the 
safety and well-being of people on the ground. Let me just 
highlight a few recent headlines that describe the problem.
    Just Monday, a rogue drone knocked out power to hundreds of 
West Hollywood residents. On August 2, the headline read, 
``Aircraft Swerves to Avoid Drone in South Jersey.'' A plane 
flying at approximately 1,000 feet was forced to make an 
evasive turn in order to avoid hitting a drone.
    Another incident from August 2, ``Pilot Flying Into Sky 
Harbor Spots Nearby Drone.'' In this case, flying at an 
altitude of 7,000 feet, the pilot spotted a drone just 100 feet 
below the airplane's nose.
    On July 26, ``Drone causes plane to make an emergency 
landing at Niagara Falls airport.''
    And on September 12, ``Drone Crashes, Injuring Baby in 
Pasadena.''
    These are just a few examples of irresponsible operators 
flying drones and demonstrate, in my judgment, the need for 
more education and regulation.
    Captain Canoll will be testifying on the pilot's 
perspective on how we can safely integrate unmanned aircraft 
systems into our airspace. And we will hear some examples of 
near misses that pilots have experienced.
    Pilot reports of unmanned aircraft have increased 
dramatically over the past year, an issue that the FAA must 
take and is taking very seriously, as it seeks to maintain the 
world's safest aviation system. According to the FAA, there 
were 764 possible encounters with unmanned aircraft reported by 
pilots or aircraft personnel between November 2014 and August 
2015 across the country, including four incidents in my State 
of Maine.
    In keeping with its mission, the FAA must act to counter 
the potential threat of rogue drones and the harm they pose to 
aircraft and passengers.
    As these unmanned vehicles become more common, it is very 
likely that the number of incidents will only increase. This 
calculation becomes quite daunting when you consider the FAA's 
recent announcement that it expects 1 million drones to be 
purchased before Christmas this year. And that is not taking 
into account the estimated 700,000 drones that have already 
been purchased.
    While this emergent technology presents some unique 
challenges, especially as its use becomes more widespread, I do 
want to acknowledge the myriad benefits that unmanned aircraft 
systems can provide.
    For example, unmanned aircraft can help first responders 
battle fires; detect chemical, biological, and nuclear hazards; 
and navigate other areas too dangerous for people to tackle. 
They can also help inspectors monitor our Nation's railroads 
and pipelines, therefore improving safety across our 
transportation network. Furthermore, drones can assist disaster 
recovery efforts by improving damage assessments and providing 
needed supplies more efficiently.
    In addition to these critical benefits, drones are 
projected to have a substantial impact on our economy by 
creating jobs and increasing efficiencies in various 
industries. For example, drones can help farmers monitor crop 
growth and diseases, and more precisely target fertilizers and 
pesticides. They are also supplementing helicopters in the news 
and film industry, and may even be able to deliver packages 
more affordably, more quickly, and with less risk than current 
means.
    In fact, according to the Association for Unmanned Vehicle 
Systems International, the manufacturing and operation of 
drones will create more than 70,000 jobs in the first 3 years 
after their integration into our national airspace system.
    So it is evident that we need to strike a balance in the 
regulation of unmanned aircraft systems that recognizes their 
legitimate uses by responsible owners versus the dangerous 
intrusions caused by irresponsible operators.
    I look forward to hearing the testimony of Mr. Rogers as he 
identifies ongoing research on the groundbreaking ways unmanned 
aircraft are being used, as well as how technology such as geo-
fencing, which I am particularly interested in, can play an 
important role in preventing potential disasters.
    As technology advances, the FAA must ensure that its 
priority of protecting the flying public does not stifle 
innovation. Yet we cannot allow the excitement of these 
potential benefits distract us from the critical work that 
still must be done to ensure the safety in the air as well as 
on the ground. That has to be priority number one.
    Another issue of concern to the public is the privacy 
implications of drones. Virtually everyone would welcome the 
presence of a drone that helps to locate a lost child in the 
deep woods, yet many would not want a drone to be used to 
photograph innocent individuals entering and leaving their 
homes.
    As the FAA moves forward, collaboration with local, State, 
and other Federal officials is essential. It is equally 
important to better educate the public and make certain that 
drone operators have the necessary information at their 
fingertips.
    The FAA's campaign, Know Before You Fly, is a step in the 
right direction, as is the recent announcement by Secretary Fox 
and Administrator Huerta regarding the registration of drones.
    I look forward to exploring all of these important issues 
with our witnesses this morning.
    Before calling on our distinguished ranking member, Senator 
Reed, I also want to acknowledge that we have some of FAA's 
most distinguished employees from a senior leadership 
development program in the audience with us today. They have 
traveled all over the country to get to Washington, not just 
for this hearing, I might add. But we do want to welcome them 
and thank them for their work and for being here today.
    [The statement follows:]
             Prepared Statement of Senator Susan M. Collins
    The subcommittee will come to order. Today, we are holding a 
hearing to discuss the use of unmanned aircraft systems, also known as 
drones, in our national airspace. I want to welcome our thee witnesses: 
FAA Administrator Michael Huerta, Marty Rogers, the Deputy Director of 
ASSURE, which is the Alliance for System Safety of U.A.S. through 
Research Excellence, and Captain Tim Canoll, the president of the Air 
Line Pilots Association, who has brought with him one of the more 
popular drone sold today for recreational use. This is the same type of 
drone that landed on the White House lawn earlier this year.
    There have been a number of troubling incidents with drones coming 
in close proximity to aircraft flying near our Nation's airports, as 
well as other dangerous instances affecting the safety and well-being 
of people on the ground. Let me just highlight a few of recent 
headlines that describe the problem:
  --Just Monday, a rogue ``Drone knocked out power to hundreds of West 
        Hollywood residents;''
  --On August 2, the headline read: ``Aircraft Swerves to Avoid Drone 
        in South Jersey''--a plane flying at approximately 1,000 feet 
        was forced to make an evasive turn to avoid hitting a drone;
  --Another incident on August 2, ``Pilot Flying into Sky Harbor spots 
        nearby drone''--flying at an altitude of 7,000 feet, the pilot 
        spotted a drone just 100 feet below the airplane's nose;
  --On July 26, ``Drone causes plane to make an emergency landing at 
        Niagara Falls Airport''; and
  --On September 12, ``Drone Crashes Injuring Baby in Pasadena.'' These 
        are just a few examples of irresponsible operators flying 
        drones and demonstrate, in my judgement, the need for more 
        education and regulation.
    Captain Canoll will be testifying on the pilots' perspective on how 
we can safely integrate unmanned aircraft systems, and we will hear 
some examples of near misses that pilots have experienced.
    Pilot reports of unmanned aircraft have increased dramatically over 
the past year, an issue the FAA must take very seriously as it 
maintains the world's safest aviation system. According to the FAA, 
there were 764 possible encounters with unmanned aircraft reported by 
pilots or airport personnel between November 2014 and August 2015 
across the country, including in my State of Maine. In keeping with its 
mission, the FAA must act to counter the potential threat of ``rogue 
drones'' and the harm they pose to aircraft and passengers.
    As these unmanned vehicles become more common, it is likely that 
the number of harmful incidents will only increase. This calculation 
becomes quite daunting when you consider the FAA's recent announcement 
that it expects one million drones to be purchased before Christmas 
this year. And that is not taking into account the estimated 700,000 
drones that have been purchased to date.
    While this emerging technology presents some unique challenges, 
especially as its use becomes more widespread, I do want to acknowledge 
the myriad benefits unmanned aircraft systems can provide. For example, 
unmanned aircraft can help first responders battle fires, detect 
chemical, biological and nuclear hazards, and navigate other areas too 
dangerous for people to tackle themselves. They also help inspectors 
monitor our Nation's railroads and pipelines, thereby improving safety 
across our transportation network. Furthermore, drones can assist 
disaster recovery efforts by improving damage assessment and providing 
needed supplies more efficiently.
    In addition to these critical benefits, drones are projected to 
have a substantial impact on our economy by creating jobs and 
increasing efficiencies in various industries. For example, drones can 
help farmers monitor crop growth and diseases and more precisely target 
fertilizers and pesticides. They are also supplementing helicopters in 
the news and the film industry, and may even be able to deliver 
packages more affordably, more quickly, and with less risk than current 
means. In fact, according to the Association for Unmanned Vehicle 
Systems International, the manufacturing and operations of drones will 
create more than 70,000 jobs in the first 3 years after their 
integration into our national airspace system.
    So, it is evident that we need to strike a balance in the 
regulation of unmanned aircraft systems that recognizes their 
legitimate uses by responsible owners versus the dangerous intrusions 
caused by irresponsible operators.
    I look forward to hearing the testimony of Mr. Rogers as he 
identifies ongoing research on the groundbreaking ways unmanned 
aircraft are being used as well as how technology, such as geo-fencing, 
which I am particularly interested in, can play an important role in 
preventing potential disasters. As technology advances, the FAA must 
ensure that its priority of protecting the flying public does not 
stifle innovation. Yet, we cannot allow the excitement of these 
potential benefits to distract us from the important work that must 
still be done to maintain safety in the air as well as on the ground. 
That has to be priority number one.
    Another issues of concern to the public are the privacy 
implications of drones. Virtually everyone would welcome the presence 
of a drone that helps to locate a lost child in the deep woods. Yet, 
many would not want a drone to be used to photograph individuals 
entering and leaving their homes.
    As the FAA moves forward, collaboration with local, State, and 
other Federal officials is essential. It is equally important to better 
educate the public and make certain that drone operators have the 
necessary information at their fingertips. The FAA's campaign ``Know 
Before You Fly'' is a step in the right direction as is the recent 
announcement by Secretary Foxx and Administrator Huerta regarding the 
registration of drones.
    I look forward to exploring all of these important issues with our 
witnesses this morning.

    Senator Collins. Senator Reed.

                     STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Madam Chairman, for your 
introduction and for your very, very thoughtful statement.
    I am very glad that you are holding this hearing because 
the UAS (unmanned aircraft systems), or as most Americans know 
them, drones, have become an incredible phenomenon in our 
society. It is particularly timely, this hearing, because of 
all the incidents you have mentioned, and because Secretary Fox 
announced last week the creation of the UAS registry. We look 
forward to seeing and talking to the FAA about all these issues 
this morning.
    We all understand that these UAS drones are changing the 
very way we do business. They are also quickly changing the way 
we see and explore the world.
    And the FAA, to my amazement, is estimating anywhere 
between 700,000 and 1 million of these drones will be sold as 
holiday gifts this year, which is sort of the ghost of 
Christmas present. We have to get this done before Christmas 
future, so that is our work.
    These are exciting developments for many reasons. The 
chairman has pointed out the technological advantages, the 
breakthroughs that we can do. But we also have to protect the 
other side of the equation.
    As the Providence Journal reported, laws regulating the use 
of drones have struggled to keep pace, drone users, aviation 
officials, and local political leaders say, leaving confusion 
about when and where flying the now common devices is legal. 
That is the situation all across the country, so we need 
clarity.
    This hearing is important to address these concerns. Let me 
thank the witnesses for your appearance today and for your work 
over many years. I thank you all.
    And we look forward to hearing each of you and your points 
of view. I know that the development of the UAS, all of them 
are presenting challenges to the FAA.
    Generally speaking, anyone interested in flying an aircraft 
gets the appropriate training and learns all the rules and 
regulations about safely using our national airspace. By the 
time they go for their first solo flight in an aircraft, they 
are well aware of the aviation system around them and have a 
healthy respect for safety protocols. In addition, commercial 
pilots flying passenger aircraft or cargo airplanes are 
actively managed by a Federal work force of air traffic 
controllers who know the airplanes' flight paths and 
communicate directly with the pilots.
    There is also a chain of custody when the Department of 
Defense (DOD) or the Department of Homeland Security (DHS) is 
operating Government-owned UAS.
    This arrangement has kept the national airspace safe. And 
if there is an accident, Federal investigators can focus on its 
cause and do not have to spend their time and resources just to 
find out who is involved.
    But the explosion of unmanned systems is creating an 
entirely new challenge. The FAA now finds itself needing to 
reach out to UAS consumers who have just opened up their box 
from Amazon or Best Buy and want to start flying and using 
these aircraft, but they have had no training, they have had no 
exposure. They are, in many cases, unaware that they need such 
training.
    Today, the FAA needs to think about what happens when 
protecting the safety of our skies means not only actively 
managing large commercial aircraft, but also finding a safe 
place for small, lightweight vehicles. What kind of rules of 
the road can be set up for the space where air traffic 
controllers do not work and serve as traffic cops, those gray 
areas, if you will? How do the FAA's procedures need to be 
updated for airspace actively managed by air traffic 
controllers? And how will air traffic controllers interact with 
these potential vehicles?
    UAS technology is evolving so quickly, we need to know that 
the FAA is keeping up with these developments, responding to 
them strategically, and taking effective steps to protect our 
safety and prevent the next accident.
    I know that the FAA has been leading an interagency 
committee on integrating unmanned vehicles into the national 
airspace. That committee, including DOD, DHS, the National 
Aeronautics and Space Administration (NASA), and other 
interested agencies, has been working for a number of years to 
solve the problems of integrating Government-owned UAS in our 
national airspace. It would be good to hear about the progress 
of that committee on integrating not only these Government-
owned systems, but the lessons they have learned so they can 
integrate the privately owned systems.
    We need to know that you are making progress on these 
regulations, on small UAS. We also would like to hear about the 
strategy for integrating the large UAS systems into the 
national airspace system.
    There are so many questions here, and I am delighted that 
we have the experts here to respond to them. This will give us 
an opportunity to hear about all of your work with your 
partners, and I look forward to hearing all of your testimony 
today. Thank you for your efforts. Thank you, gentlemen.
    Thank you, Madam Chairman.
    Senator Collins. Thank you very much.
    We will start with Administrator Huerta.

                      DEPARTMENT OF TRANSPORTATION


                    Federal Aviation Administration

STATEMENT OF HON. MICHAEL P. HUERTA, ADMINISTRATOR
    Mr. Huerta. Chairman Collins, Ranking Member Reed, Chairman 
Cochran, members of the subcommittee, thank you for inviting me 
to testify today.
    The FAA supports the growth of unmanned aircraft, but they 
must be operated in a safe and responsible manner. Unmanned 
aircraft are already performing a number of important tasks, 
from inspecting aging infrastructure to monitoring crops and 
wildlife.
    The number of recreational unmanned aircraft continues to 
grow. Many retailers already have large stocks of UAS on the 
shelves for this holiday season. This boom gives us the 
opportunity to bring the spirit of aviation to an entirely new 
class of users.
    This opportunity, however, often poses great challenges. 
Many UAS users may not be aware that they are operating in a 
shared and potentially busy airspace. A pilot in the cockpit 
knows it. A UAS operator on the ground looking up may not.
    In recent months, we have seen an increase in reports of 
unmanned aircraft coming too close to airplanes and airports, 
from interfering with wildfire fighting in California to 
crashing into a stadium during a U.S. Open tennis match. These 
incidents make it clear that we must work harder to ensure a 
strong culture of safety and responsibility.
    There is no single solution to the question of how we do 
that. The safe integration of unmanned aircraft is 
multifaceted, and our approach must be as nimble as the 
technology itself is.
    Registration will be one tool we will use to meet this 
critical goal. Last week, Secretary Foxx and I announced that 
the FAA is going to require operators to register these 
aircraft. The details will be developed by a task force of 
Government and industry stakeholders. The Secretary set a 
deadline of November 20 for the group to complete its 
recommendations, and work is already underway.
    The task force will make recommendations on the 
registration process itself and the minimum requirements for 
UAS that need to be registered. We published these and other 
questions facing the task force in a Federal Register notice. 
We want feedback from anyone who has solid and practical ideas 
of how we can make this a success.
    The benefits of registration are twofold. First, it gives 
us an opportunity to educate operators about airspace rules, so 
they can use their UAS safely. Second, registration will help 
us more easily identify and take enforcement actions against 
people who do not obey the rules and operate safely.
    We believe that we have taken an important step forward by 
clarifying that Federal law requires registration of all 
aircraft, including unmanned aircraft, but it is not the whole 
solution. Education also plays an important role.
    The FAA and its partners continue to conduct outreach 
through the Know Before You Fly campaigns and the No Drone Zone 
campaign, making users aware of where they can and cannot fly, 
and we have partnered with the San Francisco 49ers football 
team to produce a public service announcement that runs on the 
team's scoreboard during home games. We are pursuing similar 
efforts with the National Football League itself, in hopes that 
we can reach an even wider audience. And we also have public 
engagement efforts in markets nationwide to amplify this 
message.
    For those who do not follow the rules, we need to continue 
our enforcement efforts. Earlier this month, the FAA proposed a 
$1.9 million civil penalty against a company that knowingly 
conducted dozens of unauthorized flights over Chicago and New 
York. It sends a clear message to others who might pose a 
safety risk: Operate within the law, or we will take action.
    As registration, education, and enforcement focus on 
enhancing safety around recreational users, we recognize the 
need to put in place a regulatory framework that keeps pace 
with commercial uses.
    This past year, we proposed a rule that would allow small 
unmanned aircraft operations that we know are safe, and we plan 
to finalize the rule by the spring.
    While that work is ongoing, we are using our authority to 
accommodate requests for commercial operations. To date, we 
have approved more than 2,000 exemptions that allow unmanned 
aircraft to be used for a variety of purposes.
    Under our Pathfinder program, we are working with industry 
to determine how to safely expand unmanned aircraft operations 
beyond the parameters of the proposed rule.
    Just this past Sunday, BNSF Railway used an unmanned 
aircraft to inspect miles of its tracks in New Mexico, 
demonstrating beyond visual line-of-sight capabilities. The 
flight marked the first of what we hope will be many successful 
Pathfinder tests and flights.
    While the FAA is showing the flexibility needed to handle 
this exciting new arrival in aviation, we remain committed to 
our number one priority: a safe airspace. We do not want to 
stifle innovation, but we are never going to compromise on 
safety.
    Working together with all interests, we are confident that 
we can balance safety and innovation.
    Thank you, and I am happy to respond to your questions.
    [The statement follows:]
               Prepared Statement of Hon. Michael Huerta
    Chairman Collins, Senator Reed, Members of the Subcommittee: I am 
pleased to appear before you today to discuss a subject that continues 
to be the topic of a lot of conversation; Unmanned Aircraft Systems or 
UAS. Wherever we look, in everything from popular culture to store 
shelves, UAS seem to be everywhere. It might appear to some people that 
UAS suddenly appeared in our skies and are now everywhere, from the 
White House lawn to the U.S. Open Tennis tournament, sometimes flying 
too close to commercial aircraft or interfering with firefighting 
efforts. Many different departments and agencies within the Federal 
Government have responsibilities associated with UAS. Among other 
things, the Federal Aviation Administration's (FAA) responsibility 
includes the safe and efficient integration of UAS into the National 
Airspace System (NAS). In 2012, Congress passed the FAA Modernization 
and Reform Act of 2012 (2012 Act), which, in part, charged the FAA with 
safely integrating UAS into the NAS by September 30, 2015.
    FAA has recognized the significance of this technology and has 
adapted organizationally to provide this emerging technology with a 
commensurate level of attention. Recently, FAA selected two executives, 
Marke ``Hoot'' Gibson and Earl Lawrence, to oversee our UAS integration 
efforts. Hoot is the Senior Advisor on UAS integration, reporting 
directly to the Deputy Administrator. He will establish a focus on 
external outreach and education and interagency initiatives. Earl is 
the Director of the UAS Integration Office within the FAA's Safety 
organization. He will lead the FAA's efforts to safely and effectively 
integrate UAS into the NAS. Their addition to the FAA team acknowledges 
the expanded demand of UAS issues both inside and outside the FAA.
    At the outset, I would like to discuss the announcement Secretary 
Foxx and I made last week regarding the creation of a task force to 
develop recommendations for a registration process for UAS. The task 
force will be composed of 25--30 diverse representatives from the UAS 
and manned aviation industries, the Federal Government and other 
stakeholders. The group will advise the Department on which aircraft 
should be exempt from registration and will also explore options for a 
streamlined system that would make registration less burdensome for 
commercial UAS operators.
    Registering unmanned aircraft, along with any other measures that 
the task force may consider, will help build a culture of 
accountability and responsibility, especially with new users who have 
no experience operating in the U.S. aviation system. It will help 
protect public safety in the air and on the ground. This culture of 
accountability and responsibility will in turn help create space for 
the creativity, innovation and exploration that will drive this 
industry forward in the years and decades ahead.
    There is no doubt that UAS can be of great value to this country. 
In accordance with the appropriate authorizations, UAS are being used 
today to examine infrastructure, survey agriculture, provide emergency 
response support, examine damage caused by time or disaster, and go 
places that would otherwise be dangerous for people or other vehicles. 
Entrepreneurs around the world are exploring innovative ways to 
incorporate the potential of UAS into their corporate activities. A 
number of public and commercial operations are being conducted today, 
including the ones mentioned above, that contribute to public safety 
and enhance the ability of corporations to achieve important goals. FAA 
does not underestimate the importance of integrating the range of UAS 
technology into the NAS, but there are significant safety challenges 
that must be mitigated for this to occur.
    For example, we have witnessed a huge influx of casual users, 
people who fly UAS for entertainment or recreation. This has become the 
crux of a growing problem. UAS introduces, not just a new class of 
aircraft, but a new class of pilot. The vast majority of these 
operators do not have the basic aviation training or experience 
required for pilots of traditional aircraft. They have no knowledge 
that they may be flying in controlled airspace. Some may have no 
recognition that their actions could have serious consequences. They 
are simply having fun with a toy.
    The primary goal of the FAA is to integrate this new class of 
aircraft and their operators safely and efficiently into the NAS, 
regardless of whether the operations are recreational or commercial in 
nature. Because this new branch of aviation is changing at the pace of 
human imagination, the FAA believes a flexible framework is imperative. 
The UAS industry is developing many new exciting technologies and the 
FAA must provide a regulatory framework for UAS to operate safely. Our 
goal is to provide the basic rules for operators, not identify specific 
technological solutions that could quickly become outdated. The FAA is 
creating a safe operational environment for innovators to demonstrate 
their technologies. We are doing this through the establishment of 
basic operational regulations, the issuance of exemptions and 
experimental certificates, and our continued research and collaboration 
at our UAS test sites, Center for Excellence, and Pathfinder programs.
    We recognize that the technology associated with unmanned aircraft 
is continuing to evolve. This is also true for the many technologies 
that could further enhance the safety and capabilities of these 
aircraft. Earlier this month, we announced a research agreement with 
CACI International to evaluate technology that identifies unmanned 
aircraft near airports. This expansion of the Pathfinder programs is in 
response to the disturbing reports of UAS by pilots in the airport 
environment. Working with our government and industry partners, we will 
assess this capability in an operational environment without 
compromising safety.
    Our efforts also include long-term planning, including the ongoing 
development and finalization of the regulation of small unmanned 
aircraft. We are conducting collaborative research and development with 
interagency partners and the UAS industry. We have established test 
sites and airspace for these activities. The FAA and our government 
partners have always realized that the best way to succeed is through 
partnership, whether it be with industry or other governments. Finding 
consensus leads to cooperation and willing participation.
    Consistent with our approach to other regulations, we are 
establishing a risk-based approach to the regulations in this area, 
laying a strong foundation for safe integration. The concept is 
balance. We must develop a broadly scoped approach to rulemaking to 
identify and mitigate safety risks without stifling innovation and 
industry performance. However, a key factor in the success of 
regulations is the willingness of the operators to follow them.
    Integrating UAS means integrating operators into the aviation 
culture and mindset. It means creating a general awareness that these 
devices are not toys and the consequences of misuse can be serious. We 
believe the most effective way to accomplish this task is through 
education. We want to work through partnerships with model aircraft 
organizations, manufacturers, and interagency partners, as well through 
traditional and social media outreach, to ensure that these new 
operators know when and where they may safely fly.
    To this end, with the help of our stakeholders, we developed the 
``Know Before You Fly'' and ``No Drone Zone'' programs. ``Know Before 
You Fly'' offers common sense advice, such as don't fly near airports, 
don't fly in adverse weather, don't fly under the influence of alcohol 
or drugs, and don't fly over people or sensitive infrastructure like 
power plants.
    Our ``No Drone Zone'' program began with the Super Bowl earlier 
this year and is tailored to specific events and places, such as the 
heavily restricted airspace around Washington, D.C. The No Drone Zone 
video posted on You-Tube prior to the Super Bowl this year received 
over 59,000 hits. Most importantly, we received no reports of 
unauthorized activity in the restricted airspace around the stadium.
    We want people to enjoy their hobby, but we want to make sure they 
fly safely. Education, such as the programs noted above, has been our 
preferred method for successfully integrating UAS operators. We can 
never let an educational opportunity slip by. We need to be creative 
and collaborative in our approach to reaching the public. I will share 
with you two examples of this approach. Several UAS manufacturers have 
started to voluntarily include the ``Know Before You Fly'' safety 
literature with their product packaging. We are also trying to reach a 
broader audience by working with the San Francisco 49ers NFL football 
team to use their scoreboard to make public service announcements 
during their games. We hope to expand this type of outreach in the 
coming months.
    In order to make it easier for the operator to know when and where 
it is appropriate to operate a UAS, in particular a model aircraft, we 
helped develop the B4UFLY mobile app. This is a simple, intuitive user 
interface that lets UAS operators know if there are any prohibitions in 
place for where they are flying or where they want to fly. There is a 
color-coded status indicator with text that provides the operator with 
situational awareness. Beta-testing of this app is ongoing and the FAA 
will make adjustments where necessary based on user feedback. The 
industry is clearly looking to FAA for leadership in educating the 
public about the safety parameters for model aircraft operations. Our 
vision for this app is that the FAA would continue to support the basic 
technology, while other companies could augment it with their 
navigational maps.
    As discussed, the FAA believes that partnerships and education are 
the keys to the success of safe UAS integration. But to be clear, if 
the unauthorized operation is intentional or is intended to cause harm, 
strong and swift enforcement action, including criminal enforcement, 
will be taken.
    When UAS delayed fire-fighting activities in the drought-stricken 
western States, local law enforcement and forest service personnel were 
on the front lines dealing with the situation. We are working with law 
enforcement agencies to educate them about our rules and to emphasize 
that, in addition to the FAA's rules, there are existing State and 
local laws in areas of reckless endangerment, trespass, and privacy 
that could apply. Just because this is a new technology or different 
than what law enforcement has seen in these areas before does not mean 
that these laws would not be equally applicable to such acts involving 
use of UAS. We want to work with law enforcement because if they 
encounter unauthorized UAS operations, they can help us to gather 
evidence and find witnesses that will help with our investigations and 
enforcement action. For some, education will never be sufficient. As 
with any other activity, we will always have to contend with those who 
wish to cause mischief or refuse to consider the potential harm their 
activities might pose to others.
    Informing and educating UAS operators is just one piece of 
integrating these vehicles safely into the NAS. The 2012 Act provided 
the Secretary with the authority to issue exemptions that allow for 
commercial UAS activity in low risk, controlled environments (section 
333 exemptions). After gaining experience with various types of 
operators, the Department recently expedited its approach for section 
333 exemptions. We are now able to issue summary grants when we find 
that we've already granted a similar exemption. Summary grants are more 
efficient because they do not require applicants to repeat analysis 
that has already been performed. This streamlined approach now allows 
the Department to issue between 40 and 50 section 333 exemptions a 
week. These exemptions are effectively acting as a bridge until the 
small UAS final rule is issued, which we are working to complete by 
next spring.
    Additionally, as part of our efforts to streamline the integration 
of this technology, the FAA has further expedited safe UAS integration 
and facilitated commercial use by issuing a blanket Certificate of 
Waiver or Authorization (COA) for flights at or below 200 feet when it 
issues a section 333 exemption. The blanket COA can be used for UAS 
operations that involve aircraft that weigh less than 55 pounds, 
operate during daytime Visual Flight Rules (VFR) conditions, operate 
within visual line of sight (VLOS) of the pilots, and stay at the 
prescribed distances away from airports or heliports.
    From the outset, we have worked closely and successfully with 
government partners and industry stakeholders to achieve milestones put 
forward by the 2012 Act. In coordination with other governmental 
agencies and industry, we developed two long-term planning documents, 
the Comprehensive Plan and a 5-year Roadmap. We have worked with 
members of the UAS Executive Committee (ExCom), comprised of 
representatives of various government agencies and departments with 
responsibilities in this area, to leverage our collective assets and 
conduct research and development on UAS integration while ensuring the 
continued safety of the NAS. The FAA collaborated with the National 
Aeronautics and Space Administration (NASA) on studies advancing air 
traffic control interoperability with future use by UAS of detect-and-
avoid (DAA) systems in controlled airspace. We continue to collaborate 
with the industry on flight tests to validate RTCA \1\ standards for 
DAA systems as well as command and control radios. RTCA began work on 
the standards at the request of the FAA in 2013 and they are scheduled 
for completion in 2016. These standards will help resolve two of the 
difficult challenges facing the industry for integration of UAS into 
the NAS. NASA, the FAA, and industry partners have successfully 
demonstrated a proof-of-concept airborne DAA system and prototype 
radios for use as command and control systems for UAS.
---------------------------------------------------------------------------
    \1\ RTCA, Inc. is not-for-profit organization that serves as a 
Federal advisory committee to the FAA. See http://www.RTCA.org.
---------------------------------------------------------------------------
    We are already looking beyond the small UAS rulemaking at what 
comes next in terms of the types of operations expected, and what 
technologies we may need to certify to ensure safety. The FAA has 
consulted with the UAS ARC to determine the next areas of focus so we 
can enable those UAS operations with the highest net societal benefits. 
These recommendations are being assessed and will result in additional 
focus areas that will become the centerpiece for FAA's strategic plans 
for UAS integration.
    As the aerospace industry and aviation system grow more complex, we 
must ensure that our resources are directed to those areas which pose 
the greatest risk to safe aviation operations. We will need to expand 
collaborative, data-driven processes with the UAS industry to improve 
safety and streamline process in areas such as certification. We must 
meet challenges and take advantage of opportunities.
    The safe integration of UAS into the NAS will be facilitated by new 
technologies being deployed as part of the Next Generation Air 
Transportation System (NextGen). NAS Voice System (NVS), Data 
Communications (Data Comm), and System Wide Information Management 
(SWIM) will provide more information, flexibility, situational 
awareness, and a greater ability to communicate with NAS users.
    To enhance safe application of new and emerging technologies, 
earlier this year, FAA established the Pathfinder Program, which was 
referenced above. In the Pathfinder Program we work with three 
companies to obtain important information on the next steps beyond 
operational parameters included in the small UAS NPRM. For visual line 
of sight operations, FAA is working with CNN on how UAS might be used 
for news gathering in populated areas. We are also working with the UAS 
manufacturer Precision Hawk to explore beyond visual line of sight 
operations in rural areas. Precision Hawk will be working to explore 
how flying beyond the pilot's direct vision might be used to allow for 
greater UAS use for crop monitoring in precision agricultural 
operations. BNSF Railway will explore command and control challenges of 
using UAS to inspect rail system infrastructure. Developing the safe 
use of this important technology can only benefit how UAS can be used 
in the future.
    Aviation technology is constantly evolving. This is certainly not 
the first time we, as an agency, have been required to integrate new 
aviation technology into the NAS. Different aircraft technologies, 
including jet engines, were required to be accepted operationally and 
we handled them as they developed. Today, in addition to UAS, we are 
working to integrate commercial space technology into the NAS. Clearly, 
there will be other technologies that we will be required to integrate 
moving forward.
    I am proud of the team we have brought together and of the approach 
we are taking to ensure that our airspace continues to be the safest in 
the world, even as we work to accommodate new technologies that have 
the potential for changing the way we live our lives. This is an 
exciting time to be part of the FAA. I am happy to have had the 
opportunity to speak with you this morning and I will be glad to answer 
any questions you have.

                       NONDEPARTMENTAL WITNESSES

    Senator Collins. Thank you very much, Administrator.
    Mr. Rogers.
STATEMENT OF MARTY ROGERS, DEPUTY DIRECTOR, ALLIANCE 
            FOR SYSTEM SAFETY OF UAS THROUGH RESEARCH 
            EXCELLENCE
    Mr. Rogers. Chairman Collins, Ranking Member Reed, members 
of the subcommittee, thank you for the opportunity to address 
you today on this important topic.
    I represent the FAA Center of Excellence, the Mississippi 
State University-led Alliance for System Safety of UAS through 
Research Excellence (ASSURE), the University of Alaska 
Fairbanks Unmanned Aircraft program, its FAA test site, and 
then, by the very nature of our collaboration and cooperation, 
all the six different test sites.
    Our team and many of those mentioned have been working to 
integrate UAS into the national airspace system for many years. 
Much progress has been made in the time since the passage of 
the FAA Modernization and Reform Act in January 2012. Others 
can cover the specifics of the act far better than I can, so I 
would like to offer my thoughts on the key issues that remain 
within our community and some suggestions on how we who are 
partners with FAA can be used to advance the cause of safe 
integration of unmanned aircraft more effectively and more 
rapidly.
    First, however, I would like to remind the committee of the 
importance of unmanned aircraft technology. While it has 
applicability in almost all areas that require the collection 
of data, I believe there are three areas which justify special 
mention. Specifically, these are support for critical 
transportation and logistics infrastructure; emergency 
response, such as search and rescue and wildfire response; and 
finally, one area which is already showing some of the greatest 
potential, which has already been mentioned, is precision 
agriculture.
    These are the applications, but the use of the technology 
within these specific applications is absolutely staggering. 
Each should be a reminder to us that the safe integration of 
UAS into the NAS, the national airspace, should be our highest 
priority.
    The ASSURE U.S. Center of Excellence and the six U.S. test 
sites have been accorded a level of trust and access to some of 
the FAA's thinking and priorities, as well as approvals that 
were previously not available. We have also developed rigorous 
processes, procedures, standards, and checklists that the FAA 
has inspected and approved, and to which we are required to 
adhere to for all of our operations. And we are proud of the 
discipline we bring to the table.
    As a result of that, we are convinced that, due to that 
rigor, we obtained a level of safety and operations that are 
not equaled by many others.
    We expected that this would earn us easier access to the 
national airspace in the form of more autonomy in some fairly 
known or routine areas, and more rapid approval of those areas 
to expand the further integration. In fact, we do have more 
autonomy in that the FAA has granted the six test sites, we 
call them National Certificates of Authority, or National COAs, 
that allow us to operate nationwide up to the limits of the 
proposed small UAS rule.
    However, gaining even seemingly minor expansion of those 
permissions remains slow and burdensome, despite our adherence 
to these rigorous processes. For example, the FAA in granting 
the national COA expected to speed up the processing of 
applications since small UAS are covered within the six test 
sites by the national COA. However, stakeholders continue to 
see applications sit for some months, at times.
    By virtue of the competitive selection process, we believe 
that the FAA has clear authority to provide the ASSURE team and 
the test sites greater authority to support the goal of rapid 
but safe integration of UAS into the NAS. An example of this 
would be including making use of the rigorous safety processes 
we have developed to relieve them of some of their review 
burden.
    For example, we developed an airworthiness process that we 
believe is actually more rigorous than what the FAA is using to 
approve the section 333, or as Administrator Huerta referred to 
it, the commercial operations, the over 2,000 applications that 
have been approved.
    Review of exemption applications can be conducted by the 
test sites with oversight by the FAA reviewers, resulting in 
both speeding the review process and increasing the level of 
scrutiny for each of these applications.
    Safety is our number one consideration, of course. The 
recent issues related to UAS being operated near airports and, 
most recently, one of the things that has concerned us the most 
has been wildfire aviation missions being impacted, a 
significant issue. These are major concerns to our community.
    I would love to be able to say that these are not 
significant issues but the reality of a collision between a 
manned and unmanned system is, in fact, inevitable. It is not a 
question of if but when now. Our ability to continue 
contemplating this problem is at an end. And much-needed 
funding has been provided to the ASSURE team to support the 
research into mitigating this event, but also to better 
understanding the consequences of an event.
    The ASSURE team is truly the best and brightest in the UAS 
community. U.S. test sites have on their own committed large 
amounts of resources to support test and evaluation of UAS 
technology, much of which now will be flowing from the ASSURE 
program just by its natural occurrence down into the test site 
program.
    And it is not possible to really overstate the combined 
value of the combination of the ASSURE team and the six UAS 
test sites to bring the goal of safe integration into the 
national airspace and make it a reality.
    So to conclude, thank you again for your time and for your 
consideration. I would like to finish by saying the FAA has had 
a daunting task. They very rarely get to hear any good news, 
but we in the community recognize their efforts to date, and we 
very much would like to be part of the long-term solutions. So 
thank you.
    [The statement follows:]
                   Prepared Statement of Marty Rogers
    Chairman Collins, Ranking Member Reed, and members of the 
Subcommittee, thank you for the opportunity to address you today on 
this important topic. I represent the FAA's Center of Excellence, the 
Mississippi State University led Alliance for System Safety of UAS 
through Research Excellence (ASSURE), which is comprised of twenty two 
highly qualified universities throughout the U.S. as well as strategic 
international research institutions, along with well over one hundred 
industry partners. Additionally, I represent the University of Alaska 
Fairbanks' Unmanned Aircraft Systems program, its FAA test site and by 
virtue of the regular collaboration and cooperation among us, all six 
test sites. Our team and many of those mentioned have been working to 
integrate UAS into the national airspace system for many years. Much 
progress has been made in the time since the passage of the FAA 
Modernization and Reform Act in January 2012. Others can cover the 
specifics of the Act far better than I can, so I would like to offer my 
thoughts on the key issues that remain within our community and some 
suggestions on how we, who are partners with the FAA, can be used to 
advance the cause of safe integration of UAS more effectively and more 
rapidly.
    First, however, I would like to remind the Committee of the 
importance of UAS technology. While it has applicability in almost all 
areas which require the collection of data, I believe there are three 
areas which justify special mention, specifically these are support for 
critical transportation and logistics infrastructure; emergency 
response, such as search and rescue and wildfires; and finally one area 
which is already showing some of the greatest potential, precision 
agriculture. These are the applications, but the use of the technology 
within these applications is staggering, and each should be a reminder 
to us that the safe integration of UAS into the national airspace (NAS) 
should be our highest priority.
    The ASSURE UAS Center of Excellence and the six UAS test sites have 
been accorded a level of trust and access to some of the FAA's thinking 
and priorities as well as approvals that were previously not available. 
We have also developed rigorous processes, procedures, standards, and 
checklists that the FAA has inspected and approved, and to which we are 
required to adhere for all operations. We are proud of the discipline 
we bring to the table, and as a result are convinced that due to that 
rigor we attain a level of safety in operations not equaled by many 
others. We expected that this would earn us easier access to the NAS, 
in the form of more autonomy in some fairly known or routine areas and 
more rapid approvals of those areas that expand the exploration of 
integration into new areas. In fact, we do have more autonomy in that 
the FAA has granted us National Certificates of Authority (COAs) that 
allow us to operate nationwide up to the limits of the proposed small 
UAS rule. However, gaining even seemingly minor expansion of those 
permissions remains slow and very burdensome, despite our adherence to 
those rigorous processes. For example, the FAA in granting the National 
COA expected to speed up the processing of applications since small UAS 
are now covered by the National COA. However, stakeholders continue to 
see applications sit for months.
    By virtue of the competitive selection process, we believe that the 
FAA has clear authority to provide ASSURE and the test sites greater 
authority to support the goal of rapid but safe integration of UAS into 
the national airspace. Examples of this include making use of the 
rigorous safety processes we have developed to relieve them of some of 
their review burden. For example, we have developed an airworthiness 
process that, we believe, is substantially more rigorous than what the 
FAA is using to approve Section 333 exemptions. Review of the exemption 
applications could be conducted by the test sites, with oversight 
initially by the FAA reviewers, resulting in both speeding the review 
process and increasing the level of scrutiny of each application.
    Safety is our number one consideration. The recent issues related 
to UAS being operated near airports, and most recently interfering in 
wildfire aviation missions by forcing the grounding of manned aircraft, 
are of major concern to our community. I would love to be able to say 
that these are not significant issues, but the reality of a collision 
between a manned and unmanned system is inevitable, and it is not a 
question of if, but when. Our ability to continue ``contemplating the 
problem'' is at an end, and while funding has just been provided for 
the ASSURE team to support research into both mitigating this event, 
but to also better understand the consequences of such an event.
    The ASSURE team is truly the ``best and brightest'' of the UAS 
community, and the UAS test sites have, on their own, committed large 
amounts of resources to support test and evaluation of UAS technology, 
much of which will now be flowing from research the ASSURE team is 
developing. It is not possible to overstate the combined value the 
combination the ASSURE team and the test sites bring to the goal of 
safe integration of UAS into the national airspace.
    To conclude, thank you again for your time and consideration, and I 
would like to finish by saying the FAA has had a daunting task, and 
unfortunately they hear very little of the good news, but we in the 
community recognize their efforts to date and very much would like to 
be part of the long-term solution. Thank you.

    Senator Collins. Thank you for your testimony.
    Captain Canoll.
STATEMENT OF TIM CANOLL, PRESIDENT, AIR LINE PILOTS 
            ASSOCIATION INTERNATIONAL
    Mr. Canoll. Thank you, Chairman Collins, Ranking Member 
Reed, and the subcommittee, for the opportunity to be here. Air 
Line Pilots Association International (ALPA) appreciates the 
subcommittee for recognizing the importance of maintaining the 
safety of unmanned aircraft systems, or UAS, operations. At 
ALPA, we know that UAS are already using the national airspace. 
We expect their use to grow significantly in the future.
    UAS can be used to perform many tasks, sometimes 
efficiently and more safely than conventional aircraft. ALPA 
shares a desire to advance America's competitiveness in these 
technologies, but our Nation must do it safely.
    Pilot reports released by the FAA this summer make clear 
that more UAS encounters are happening. Noncommercial and 
recreational UAS appear to be the primary source of these 
incidents. Let me cite two examples.
    This March in Maine, a radio-controlled helicopter 
approximately 8 inches long was found on the Portland Jetport 
at the intersection of two taxiways sitting upright and facing 
the runway. Also this summer, an airline pilot preparing to 
land at Seattle-Tacoma International Airport reported seeing a 
drone flying at 2,400 feet 5 miles from the airport.
    A number of near-miss events that have occurred in such a 
short period of time highlight the risks. And the growth of the 
use of UAS means that the hazard will only increase.
    The United States must put safety first. The FAA is making 
progress, but we need to do more. We are encouraged by the work 
on the final rule regarding commercial operations of small UAS, 
but the agency must immediately address all UAS operations, 
including recreational and noncommercial.
    ALPA's recommended action plan contains four elements.
    Number one, education. Anyone who flies these UAS must 
understand the aircraft, the airspace, and the other aircraft 
that share it. For those who want to do the right thing, there 
are resources available, such as the Know Before You Fly 
campaign, of which ALPA is a supporter.
    But we also need to reach at the point of sale those 
individuals who may not yet appreciate the potential risks. 
Individuals flying these UAS for recreation must adhere to the 
FAA guidelines, including any minimum age requirement, 
maintaining line of sight, and flying under 400 feet.
    Number two, registration. ALPA fully supports Secretary 
Fox's recent decision to create a national UAS registration 
database. Obtaining this information will not only allow the 
authorities to identify owners, it will also drive home the 
serious nature of operating these aircraft. The FAA's task 
force may be helpful, and ALPA is pleased to participate, but 
the sheer number of UAS anticipated to be sold in the near 
future means we need swift action.
    We look forward to the release of the task force 
recommendations on November 20, 2015, and having the rules in 
place before the holidays.
    Number three, technology. If the UAS is operated in 
airspace intended for airliners, or if it could unintentionally 
end up there, airline pilots need to be able to see them on 
their cockpit displays. Controllers need to be able to see them 
on their radar. And the UAS must be equipped with active 
technologies to ensure it is capable of avoiding a collision 
with manned aircraft. If regulations restrict UAS from flying 
in locations or at certain altitudes, the UAS must have 
technology that cannot be overridden to limit its operations. 
Penalties for those deliberately violating them must be 
significant.
    The FAA should also demonstrate and promote technologies to 
identify UAS and the operator locations.
    Number four, penalties and enforcement. UAS pilots must be 
properly trained and understand the consequences of exceeding 
operational limitations and possible malfunctions. Anyone 
deliberately flying a UAS recklessly should be subject to 
criminal prosecution. Anyone who is operating a UAS and 
unintentionally deviates from the rules should be subject to 
civil penalties.
    The FAA should have adequate resources to enforce these 
regulations. If the FAA intends to rely on first responders to 
ensure regulatory compliance, the agency should do more to 
inform all levels of law enforcement about the risk and 
appropriate response.
    With this four-part plan, our country can capitalize on the 
economic opportunities offered by these vehicles while 
maintaining safety. ALPA urges Congress to direct the FAA to 
regulate UAS that are operated for recreation and hobby.
    I would also like to thank Senator Feinstein for her work 
in highlighting the need for proper equipage and enforcement, 
and ALPA supports the Consumer Drone Safety Act.
    ALPA is ready to help the FAA develop these regulations to 
achieve our mutual goal of ensuring safety. Thank you very 
much.
    [The statement follows:]
                Prepared Statement of Captain Tim Canoll
    The Air Line Pilots Association, International (ALPA) is the 
largest airline pilot union in the world and represents over 52,000 
pilots at 30 U.S. and Canadian airlines. Thank you for the opportunity 
to provide our perspective on the critical importance of safely 
integrating unmanned aircraft systems (UAS) into the U.S. national 
airspace system (NAS), the most dynamic and diverse such system in the 
world. The remarks we submit to the committee today reflect a 
perspective that ALPA has maintained for quite some time. This is not a 
new issue and our support for the future of UAS in the NAS, as well as 
our ongoing concerns, are reflected in this statement.
    The NAS must be protected and maintained to deliver the safest and 
most efficient air transportation services in the world. Although our 
focus today is the NAS, we must point out that the safety issues 
highlighted are independent of any national airspace boundary and are 
faced by ALPA's pilots as we operate around the globe.
        uas risk must be effectively managed to realize benefits
    ALPA recognizes that UAS represent a significant potential for 
economic and societal benefit. They are uniquely suited for performing 
many types of dangerous flying that can keep pilots out of harm's way. 
ALPA supports robust development of this technology with one single 
overriding condition: integration of UAS into the NAS must be done 
safely, deliberately, thoughtfully, with full understanding of the 
possible risks also being introduced, and most importantly--with 
simultaneous development of effective mitigations for those risks. We 
have to do this right, or the enviable safety record we have achieved 
in airline operations will be at risk, and with it, the promise of 
employing UAS for the benefit of the population.
    As we have for many years, ALPA continues to be an active partner 
with both government and industry in developing standards that will 
lead to safe operation of UAS in the NAS. Concurrently, we recognize 
that these standards are far from complete. Defining a safety framework 
for any new technology is necessarily a painstaking process, and ALPA, 
along with hundreds of extremely talented representatives from across 
aviation, is diligently pursuing that goal.
                            uas sales growth
    Among the most dramatic and challenging revolutions in aviation 
technology and operational capability to be introduced into the NAS is 
the UAS. There are many different types of UAS, and there seems to be 
an ever-expanding list of potential applications.
    Many published data sources support this key fact: there is 
tremendous growth in the sale and use of small UAS for both hobby and 
commercial use. Research suggests that there are likely more than 
700,000 UAS already in the hands of the public, many of whom 
undoubtedly have very little appreciation for, or understanding of, how 
to safely operate UAS in airspace that is also used by commercial 
aviation.
    Additionally, the FAA has stated that upwards of one million UAS 
could be sold this coming holiday season. Fortunately, FAA leaders 
recognized the immediate safety concerns that such a large volume of 
UAS sales would generate, and have begun to take positive steps to 
ensure that the new users of the NAS are more fully aware of their 
responsibilities. Although the FAA has made recent strides toward 
developing a regulatory framework for the registration and operation of 
some of these aircraft, much work remains. In the meantime, the FAA 
continues to publish data that increasingly point to a UAS threat to 
the safe operation of airline aircraft. Immediate action is required to 
address the documented hazards.
             faa addresses commercial small uas operations
    The FAA has taken initial steps to allow small UAS (sUAS, under 55 
pounds) to begin operating in the airspace system with multiple 
restrictions intended to mitigate risk. The FAA has established an 
interim process of approval of commercial operations on a case-by-case 
basis. This is often referred to as the ``Section 333 process'' because 
the FAA's use of this strategy is based on that section of the most 
recent FAA authorization.
    In addition to the interim approval process, the FAA published a 
notice of proposed rulemaking (NPRM) on February 23, 2015, that 
addressed the commercial operations of sUAS. The NPRM, which was 
significantly based on FAA's 2009 recommendations of the Small UAS 
Aviation Rulemaking Committee, established a proposed framework for 
commercial operators to operate their sUAS. The NPRM formally 
established the definition of an sUAS, established pilot 
qualifications, and created operational limitations.
    By the end of the notice's 60-day comment period, the FAA had 
received more than 4,000 comments. While ALPA supports the FAA's 
efforts to properly establish regulations for commercial sUAS 
operations, ALPA and other organizations encouraged the FAA to make 
some substantial changes.
    The FAA is now reconciling ALPA's comments along with all of the 
others and will ultimately issue a final rule. Between the Section 333 
process and the eventual sUAS rule, commercial operators are well on 
their way to having a defined path for approved NAS operations and a 
path for expansion of operations while ensuring safety.
     the faa needs to address all uas to ensure safety immediately
    The standards for some of the key capabilities of UAS, and the 
recommendations for the wide variety of rules that must be changed or 
developed to accommodate large UAS, are still years away. As a result, 
for the foreseeable future, without additional FAA action there will be 
no rules for the following UAS operations:
  --Noncommercial operations by companies (e.g., pipeline or power line 
        patrol by the pipeline/power line company employees)
  --Recreational/hobbyist small and large UAS
  --Commercial large UAS
    ALPA recognizes that the commercial operations of large UAS are not 
developing as quickly as sUAS used for commercial, recreational, or 
corporate operations. The FAA presently has rulemaking under way that 
addresses only one of these four types of UAS operations. The 
tremendous growth of sUAS in just the last 24 months when measured 
against the limited rules that the FAA has under way is inconsistent 
with the needs of the country for safe integration of UAS.
    recent faa incident report data is demonstrative of alpa safety 
                                concerns
    This August, the FAA published a list of pilot reports on UAS 
encounters. ALPA reviewed the 764 events, which cover only the period 
from November 2014 through August 2015. Both the volume of events and 
many of the event descriptions are sobering reminders to the industry 
that the risk of a collision between a UAS and an airline aircraft has 
increased significantly. Consider these sample summaries (ALPA 
paraphrase):
            Maine
  --03/24/2015 Summary--A radio-controlled helicopter approximately 8 
        inches long was found on the Portland, Maine, Jetport at the 
        intersection of taxiways Alpha and Charlie, sitting upright and 
        facing the runway.
            Washington
  --07/15/2015 Summary--A regional jet reported a drone at 2,400 feet 
        on a 5-mile final to Runway 16 Right. The pilot reported that 
        the drone was above him on final and appeared to be a black 
        quadcopter.

  --04/27/2015 Summary--A jet airliner was descending through 3,500 
        feet on the downwind near Vashon Island (near Seattle) and 
        sighted a deep blue metallic drone. The drone passed about 100 
        to 200 feet under his left wing and appeared to be traveling 
        northwest.
    ALPA also studied the work of others who have reviewed the FAA 
event data. The Center for the Study of the Drone, which is operated by 
Bard College in New York State, has indicated that of the 764 reported 
events in the database, 302 were determined to be near misses. In other 
words, its analysis revealed that 39.5 percent of the FAA's events 
would potentially have met the FAA's near mid-air collision (NMAC) 
criteria. In comparison, ALPA research of FAA data regarding manned-on-
manned aircraft NMAC finds that a total of 41 NMAC reports were logged 
in the same period. It should be noted that FAA NMAC reports are 
voluntarily submitted and therefore likely not a comprehensive set of 
manned-on-manned NMAC reports.
    It is clear that hundreds of NMAC of UAS over such a short 
timeframe far exceeds an acceptable level of risk to manned aircraft in 
the NAS. Undoubtedly there will be many perspectives and opinions on 
what constitutes an acceptable level of risk. If the FAA UAS event data 
tallied 100 instead of 764, ALPA would still insist that there are too 
many unexpected encounters.
    Instead of discussing subjective opinions on the risk that UAS pose 
on manned aircraft, ALPA suggests that the FAA should invite ALPA and 
others in the industry to work collaboratively to reach an agreement on 
the level of risk that is deemed acceptable, and then work to implement 
solutions to achieve the targeted risk levels. The rate of UAS 
encounters needs to be reversed, and ALPA is ready and willing to 
immediately contribute in a meaningful way to reverse the growing trend 
of UAS encounters.
  noncommercial and recreational uas operations appear to be a major 
                     source of reported uas events
    Although the FAA has made progress in attempting to educate 
noncommercial and/or hobby users as to the safe operation of their 
aircraft through its ``Know Before You Fly'' campaign, no regulations 
exist that govern the operation of the aircraft or the training and 
experience of the pilots. ALPA believes that the vast majority of the 
many ``close encounters'' with unmanned aircraft reported by airline 
flight crews are the result of users who either do not understand the 
potential severity of operating near airports and aircraft, or are 
completely unaware that they are doing so. The massive growth of this 
segment clearly has outpaced the FAA's ability to effect safety 
standards that apply to it, yet the FAA remains responsible for the 
safety of all operations in the airspace. This significant gap must be 
addressed. The FAA must have the ability to ensure the safety of the 
NAS regardless of the types of unmanned operations being conducted, and 
it must have the resources necessary to act on that mandate. As we have 
said before, we simply cannot afford to quantify this hazard by 
analyzing the damage after an unmanned system collides with an 
airliner.
             uas frangibility is questionable and untested
    ALPA is concerned about the impact of sUAS on an airline aircraft 
if there were a collision. There are numerous videos of UAS crashes 
online; in many cases the crashes occur without major damage to the 
camera and the visible parts of the sUAS. It appears that the sUAS are 
generally designed to be relatively rugged, as one would expect for a 
commercially viable product. This ruggedness, however, needs to be 
evaluated in the context of the potential damage that an sUAS would 
impose on an airline aircraft should the two collide. We frequently 
hear the comment that most sUAS are small, lightweight, plastic 
aircraft. While this is the case for the sUAS airframe itself, the 
multiple propulsion units, batteries, and on-board cameras are hard 
metal with a significant density that a bird, for instance, does not 
have.
    Airplane engines, windscreens, and other components may suffer the 
impact of such material without resulting in loss of the aircraft, but 
the damage would be nevertheless significant. Jet engines, for example, 
are notoriously susceptible to foreign object damage (FOD) typically 
caused by small, hard objects found all over airports--nuts, bolts, 
rocks, tools, etc. Damage of this type, while rarely noted in 
conjunction with an accident, costs the industry billions of dollars 
every year.
    Similarly, we have seen just in the past few months the extensive 
damage done to an aircraft in flight by hail, shattering both pilots' 
windscreens and severely damaging every part of the airplane that was 
hit. Here again, catastrophe was averted by the robustness of the 
airplane design and the skill of the flight crew, but the seriousness 
of striking hard objects in flight was clearly illustrated. Based on 
our experience with FOD, hail, and other objects striking transport 
aircraft, ALPA recommends design evaluations, modeling, and testing the 
collision impact of some of the more popular sUAS.
  uas conspicuity--data suggests that they are difficult to see until 
                                 close
    ALPA is frequently asked to explain how visible an sUAS is to a 
flight crew of an airline aircraft. There are medical studies about the 
limits of human visual acuity and some limited study data on distances 
at which a pilot perceives other aircraft. However, because UAS can be 
of essentially an infinite variety of sizes, shapes, and colors, 
studies regarding traditional aircraft do not provide a good guide. 
Factors such as size, shape, contrast with background, and movement 
relative to the observer all complicate a pilot's ability to see a UAS 
until it is extremely close and often too late to safely take evasive 
action. It is important to note that, from a safety perspective, a 
pilot simply seeing an object in the airspace is only part of the 
process. The object must be seen with enough clarity and at such a 
distance that a pilot has the ability to identify it and determine if 
evasive maneuvering is necessary to avoid a collision. To our 
knowledge, no specific quantifiable data on observing UAS from an 
aircraft moving nearly 200 mph in time to avoid collision exist.
            alpa members encouraged to report uas sightings
    In order to continue to track the rate of UAS encounters, ALPA has 
taken the initiative to encourage pilots who encounter an sUAS to 
follow their company guidance and, where applicable, file a report of 
the encounter with the FAA. A dedicated page on ALPA's website 
(www.alpa.org), available to anyone, not just members, helps pilots 
understand whether the encounter was likely reportable as a near mid-
air collision and provides web links and information needed to submit 
the necessary information.
    true uas integration: much to do to achieve one level of safety
    While it is easy to focus on very near-term, dynamic growth and the 
recent news created by the FAA, it is important to understand the 
broader challenges that still exist for nationwide integration of UAS 
into the NAS. By way of review, UAS are grouped into two separate 
categories, generally based on weight. Aircraft that weigh 55 lbs. or 
less are defined as ``small'' UAS (sUAS) and unmanned aircraft that 
weigh more than 55 lbs. are considered ``large.''
    Small UAS are typically intended for use at low altitudes, in clear 
weather, and within sight of the pilot. However, the aircraft 
themselves are capable of achieving altitudes, speeds, and ranges that 
extend far beyond the intended limits of their use. In addition, 
applications are being developed to employ these aircraft in an 
autonomous role, meaning they could operate along a predetermined 
flight path without being under the direct control of a pilot. While 
the commercial applications for sUAS are expanding rapidly, so too is 
the appeal to hobby users. In both cases, the potential exists for 
these aircraft to stray into airspace occupied by other NAS users, most 
notably by airline aircraft near airports.
    Large UAS aircraft can be as large as a small airliner and can 
operate essentially anywhere conventional aircraft operate, and in many 
cases have performance capabilities exceeding those of conventional 
aircraft. While differences in size, performance, and operational 
capabilities can vary greatly, there is also a wide range of technology 
on the ground that forms the entire system that must be considered in 
evaluating the safety of integrating these aircraft into the NAS, not 
just the aircraft itself.
    Until comprehensive solutions are developed and promulgated by the 
FAA, our overarching position is that no unmanned aircraft, public or 
civil, should be allowed unrestricted access to conduct flight 
operations into the NAS unless it meets all of the high standards 
currently required for every other airspace user. This means UAS must 
be designed to interoperate, with similar performance and functional 
requirements at the heart of their system, and have architectures 
embodying state-of-the-art safety technologies and system redundancies 
as required by currently certified commercial and general aviation 
airspace users. Of particular importance and concern is the ability of 
commercial aircraft operating in the NAS to safely perform see-and-
avoid and collision-avoidance maneuvers against UAS that may be 
operating in the same area.
    ALPA's position is that the foundation of operating an aircraft, 
and the system functions therein, in a safe and responsible manner must 
be maintained at the same level of safety regardless of the location of 
the pilot or levels of automation. At the center of current commercial 
aviation flight operations is a well-trained, well-qualified, 
professional pilot. A well-qualified pilot remains the single most 
important safety component of any commercial aircraft. A UAS should be 
able to operate as a part of the NAS, with similar certification 
standards and regulations to meet the target level of safety that is 
performed reliably and repeatedly by well-trained airline pilots and 
their aircraft in the NAS today. Accordingly, UAS operators performing 
commercial operations should be required to meet all the certification 
and equivalent safety requirements of a commercial operator. And the 
pilots flying the aircraft must meet equivalent training, 
qualification, and licensing requirements as of pilots of manned 
aircraft in the same civil regulated airspace.
                     uas design standard challenges
    Unmanned operations are envisioned to afford possibilities and 
convenience that offer the attraction of a flying technology beyond the 
conventions and constraints of modern aviation. The reality is quite 
different; new UAS technology currently lack--but must have--the 
standardization of safely integrated and interoperable certified 
systems, which the FAA requires of commercial operators in the NAS 
today. Without mature safety standards and technologies that have 
certification standards and regulations, safety in the NAS may be 
significantly and negatively impacted, introducing more vulnerability 
and risk to commercial airline operations and to an overburdened air 
traffic control (ATC) system.
    Currently, the UAS technologies, safety, and certifications for an 
end-to-end solution for NAS integration are immature. Patience and, 
most importantly, collaboration are needed to diligently examine all of 
the barriers and successfully develop comprehensive and fully mature 
solutions prior to widespread operational implementation into the NAS. 
We simply cannot afford to miss critical steps in technological design 
standards and safety analyses in an attempt to hastily satisfy a market 
demand, because the impacts to the safety of the NAS could be 
profound--far outweighing any benefits.
    The introduction of multiple variations of UAS without first 
completing comprehensive risk analysis, rigorous testing, and robust 
aircraft and pilot certifications would set back the progress 
accomplished in aviation safety while simultaneously losing the 
public's trust of safe air travel. We believe that all aviation 
stakeholders should examine UAS integration to determine how these 
platforms may impact their operations.
        technological challenges impacting operations in the nas
    A June 20, 2014, newspaper article \1\ reported that 47 UAS 
accidents involving U.S. military and Federal agencies' aircraft have 
occurred since 2001--a safety record that no commercial business or 
airline could survive. These Federal institutions have the authority to 
self-certify the airworthiness of their own UAS, which can involve 
modifying compliance with FAA certification standards to accommodate 
these agencies' unique mission requirements. This latitude and 
difference in priorities relative to commercial aviation is likely a 
contributing factor to the number of UAS accidents.
---------------------------------------------------------------------------
    \1\ ``When Drones Fall from the Sky,'' Washington Post, June 20, 
2014.
---------------------------------------------------------------------------
    As such, it is easily understood that without the FAA's and other 
safety organizations' experience and collective guidance in aviation 
safety, lesser airworthiness standards and certification procedures 
will produce greater UAS accident rates. Moreover, these accident rates 
expose the importance of developing civil standards tailored explicitly 
to UAS technologies, airworthiness, and related certifications through 
established civil procedures.
    Unlike their manned counterparts, a primary system on a UAS is the 
communication and control system (C\2\). This system is what allows the 
pilot to remotely control the aircraft. The system transmits and 
receives command inputs (e.g., flight controls, navigation, aircraft 
status, and ATC communications) from the ground station via radio 
frequency to the UAS. The criticality of the C\2\ system becomes self-
evident, as it is the most vital single-system link depended upon for 
the UAS to successfully and safely operate. Link failure--which is 
exactly analogous to the pilot of an aircraft suddenly disappearing 
from the cockpit--may cause a multitude of unintentional, cascading 
events. The sole dependence on this vital system is a necessary aspect 
of UAS operations, but its failure is one of the primary causal factors 
as to why UAS have had many accidents.
    The primary C\2\ contributing failures are associated with latency 
issues--that is, the time between transmission and reception of a 
command to successfully operate the UAS. Unlike the human on-board 
pilot, whose control input is instantaneous, latency times can be from 
3 seconds to as much as 30 seconds, perhaps more. When flying in the 
NAS, where immediate communication and required actions are expected to 
provide separation between aircraft, latency could cause more 
significant problems for ATC and manned aircraft in that airspace.
    The varying degrees of UAS C\2\ vulnerabilities and failures 
creates complex safety issues for UAS integration. The C\2\ data, 
voice, and video requirements placed on operating UAS using radio waves 
or satellite create limitations that currently prevent UAS from 
performing to the safety level of manned commercial aircraft 
operations. If a UAS cannot maintain a C\2\ link, the normal 
expectation of a UAS to perform the critical functions of ensuring 
separation from terrain, obstacles, and other aircraft, as well as 
collision-avoidance responsibilities, will unduly place safety burdens 
on other NAS users.
    Manned aircraft flown by pilots in the NAS today use instrument 
flight rules (IFR) to take advantage of the benefits of FAA's ATC 
separation services. However, a pilot's responsibility to see and avoid 
to remain well clear of other aircraft is a constant responsibility in 
the pilot's line of work, regardless of who or what else is monitoring 
the flight. Simply stated, pilots visually scan the airspace, 
especially when traffic is being reported to them by ATC, to identify 
the aircraft in question when a traffic alert is initiated or simply 
when a flight crew is flying into an airport that may not have a 
control tower to avoid all potential conflicts. The UAS needs to be 
equipped with the technological ability to maintain well clear of, and 
avoid collisions with, other operators if it is to truly replicate the 
actions expected of every aircraft in the NAS.
    A robust and safe UAS design should never result in the 
transference of safety responsibility--such as that for maintaining 
separation--to other operators and users. Accordingly, one of the most 
important capabilities yet to be developed for UAS operations is the 
detect-and-avoid (DAA) technology that is fully capable of performing 
two primary functions: staying well clear of other aircraft and, if 
that fails, retaining the ability to avoid an imminent collision using 
an active-collision avoidance technology. While those capabilities in 
manned aircraft are accomplished by a combination of pilot skill and 
electronic means, UAS must solely rely on electronic means. The 
responsibility to avoid coming hazardously close to other aircraft is a 
shared one.
    In addition to the UAS ability to detect and avoid aircraft, other 
aircraft in the NAS must likewise be able to ``see'' any UAS that could 
pose a collision threat. Realistically, given sizes too small to be 
seen by the human eye until the aircraft is dangerously close, the 
ability to be seen must be done by electronic means.
    A promising system to enable that capability is aircraft collision-
avoidance system for NextGen, or ACAS X. Currently in the research and 
development phase, only limited funding exists to develop and implement 
this groundbreaking technology. Additional funding for ACAS X (for 
manned aircraft) and ACAS Xu (for UAS) would accelerate this new 
capability. This new technology will likely play a critical role in the 
safe integration of UAS platforms into the NAS, as well as ensure 
harmonization of UAS with NextGen requirements.
         geographically limiting technology for uas operations
    Technology exists to limit the geographical and vertical limits of 
unmanned aircraft operations, independent of the performance capability 
of the aircraft itself. Geographic and vertical limiting of UAS should 
be required for all UAS that are not intended to ``mix'' with 
conventional aircraft or in the vicinity of airports and other 
sensitive areas, regardless of whether the UAS is flown for business or 
recreation. Until the FAA mandates the use of such technology, the 
effectiveness of this solution will be somewhat limited.
    Unfortunately, a software-based solution such as geographical and 
vertical fencing will be subject to hackers, or those intent on defying 
the regulations. Attempts to defeat such technology must be viewed as a 
deliberate act intended to create a hazard in the NAS and dealt with 
accordingly. Intentionally operating any aircraft, whether manned or 
unmanned, in an unsafe manner is not a hazard to be mitigated--it is a 
deliberately unsafe act that, like intentionally shining a laser at an 
aircraft, cannot be tolerated and must result in an appropriate civil 
and/or criminal penalty.
  summarizing alpa's view on uas design, certification, and operations
    The pressure for rapid integration of UAS into the NAS must not 
result in incomplete safety analyses or technologies prior to any 
authorization approvals to operate. The urgency to allow UAS into the 
NAS with immature technologies and lack of appropriate standards and 
certifications at this time should not encumber other NAS users with 
additional safety burdens. Standards and technologies for UAS must be 
in place to ensure the same high level of safety as is currently 
present in the NAS before a UAS can be authorized to occupy the same 
airspace as airlines, or operate in areas where UAS might inadvertently 
stray into airspace used by commercial flights. It is critical that the 
decisions being made about UAS airworthiness and operational 
requirements fully address safety implications and complete 
interoperability functionalities (e.g., detect-and-avoid capability) of 
these aircraft flying in, around, or over the same airspace as manned 
aircraft and, more importantly, airline aircraft.
    A well-trained and experienced pilot is the most important safety 
component of the airline system. The role of the pilot is a major area 
of concern within the UAS--and within the piloted-aircraft communities. 
UAS pilots should not be allowed to operate UAS in any commercial 
operation using non-licensed or private pilots.
    It is impossible for a UAS pilot to react to anything other than an 
explicitly annunciated malfunction. A pilot on board an aircraft can 
see, feel, smell, and hear many indications of an impending problem and 
begin to formulate a course of action before even sophisticated sensors 
and indicators provide positive indications of trouble. This capability 
is necessarily lost without a pilot on board, so the margin of safety 
the pilot represents must be replaced by other means. UAS pilots should 
be trained, qualified, and monitored to meet the equivalent standards 
of pilots who operate manned aircraft in either private or commercial 
operations.
      alpa recommendations pertaining to uas design and operations
  --A comprehensive, proactive UAS safety program should incorporate 
        technology standards, safety analyses, certifications, and 
        flight standards to ensure that introduction of UAS into the 
        NAS will not degrade the existing NAS target level of safety.
  --Federal aviation regulations that specifically address UAS 
        operators, operations, aircraft, and pilots must be developed. 
        Any UAS-unique or UAS-specific regulations must be comparable 
        and compatible with other existing regulations for other 
        airspace users.
  --UAS are inherently different from manned aircraft and should be 
        required to be equipped with safety-based technologies designed 
        with both well-clear and active collision-avoidance 
        functionalities at the heart of their system architectures to 
        operate in normal and abnormal modes and conditions to maintain 
        the current level of safety in the NAS.
  --Commercially operated UAS should be flown by pilots who hold a 
        commercial license and an instrument rating to ensure the 
        continuity of safety that now exists in the NAS. Every form of 
        transportation in the United States--marine, rail, roads, and 
        air--requires commercial licenses for commercial operations. 
        Commercial UAS operations should be no different.
  --Regulations containing certification standards, continuing 
        airworthiness standards, and minimum equipment list 
        requirements for UAS that are intended to operate commercially 
        in the NAS must be developed.
  --Any person or persons in direct control of a UAS must be limited to 
        the control of a single aircraft unless operations are 
        conducted in special-use airspace.
  --Congress should work with industry stakeholders to develop an 
        appropriate UAS integration funding mechanism.
            near-term call for action: a four-part solution
    With the anticipated sale of one million UAS in the next 90 days, 
there is an immediate sense of urgency that must be considered. ALPA 
believes that a significant step toward the eventual solution to safely 
integrating UAS into the NAS includes four fundamental elements:
  1. Education: Anyone who plans to fly UAS must understand the 
        aircraft, the airspace, and the other aircraft that could be 
        encountered while flying.
      In the case of UAS that might be flown for compensation or hire 
        in civil airspace, the pilot must hold a commercial pilot 
        certificate to ensure he or she possesses the appropriate skill 
        and experience to meet safety standards designed to protect the 
        flying public.
      Those flying UAS for recreational purposes must adhere to the FAA 
        guidelines, including potential minimum age requirements, 
        keeping the UAS within line of sight, and flying at heights 
        under 500 feet.
      ALPA urges Congress to provide definitive authority and remove 
        any ambiguity about the extent to which the FAA has the 
        authority to regulate sUAS operated for recreation and hobby. 
        However, in the absence of congressional clarification, we 
        believe the FAA may be able to utilize its authority to ensure 
        the safety of the NAS by regulating all aircraft operations 
        including recreationally flown UAS. ALPA stands ready to assist 
        the agency in the swift development of these regulations and 
        help achieve our shared goal of ensuring the safety of air 
        transportation.
      Based on what the FAA has documented to date, the ongoing 
        educational efforts under way by the FAA and recreational UAS 
        segment are woefully inadequate. ALPA remains willing and able 
        to assist.
      Near-Term Action: ALPA recommends that the FAA finalize and 
        publish its UAS mobile application, which provides UAS 
        operators with guidance and information needed to operate UAS 
        safely. This should be disseminated through a broad public-
        awareness campaign that includes top-tier advertising on the 
        nation's most popular websites, newspapers, and television and 
        radio stations. To the extent you are able, we would also 
        encourage elected officials to also spread the safety message 
        in your States and communities. In this regard, we have 
        appreciated working with Senator Feinstein to promote the safe 
        use of non-commercial UAS and we reiterate our support for S. 
        1608, the Consumer Drone Safety Act.
  2. Registration: Gathering basic information about the identity of 
        the individual purchasing the UAS not only allows law 
        enforcement authorities to identify the owner if the UAS were 
        to encounter a problem, but it helps make clear the serious 
        nature of operating a UAS in the NAS and the responsibility to 
        safeguard public safety.
      ALPA fully supports Secretary Foxx's decision last week to create 
        a task force that will recommend procedures and policy for 
        creating a national registration database for all UAS. This 
        simple and necessary tactic will not only allow authorities to 
        immediately identify the owner, but it will also drive home the 
        serious nature of operating these UAS.
      The Department of Transportation's task force is certainly a step 
        in the right direction, but we also need timely decisions. With 
        all of these safety concerns in mind, we are ready to engage in 
        discussion with our counterparts and assist this task force in 
        developing the procedures necessary to ensure we maintain the 
        highest levels of safety of our aviation system.
      Near-Term Action: ALPA supports the Department of 
        Transportation's efforts to seek recommendations from a UAS 
        registration task force by November 20, 2015, and to have rules 
        in place by the holidays. ALPA recommends that the registration 
        requirements apply to all UAS that are operated outdoors and 
        capable of an operational range of 200 feet or more. FAA has 
        long-standing precedent in this regard by requiring that the 
        agency be formally notified by the owner of any object (e.g., 
        building, antenna, etc.) which is constructed or altered to 
        exceed 200 feet above the ground, regardless of location, so 
        that it may take appropriate precautions to protect navigable 
        airspace.
  3. Technology: If UAS, either intentionally or unintentionally, are 
        operated in airspace that airliners use, airline pilots need to 
        be able to see them on cockpit displays, controllers need the 
        ability to see them on their radar scopes, and UAS must be 
        equipped with active technologies that ensure that the UAS is 
        capable of avoiding collision with manned aircraft. In these 
        types of operations, technology must enable the pilots to 
        control and interact with them in the same manner as if the 
        pilot were on board.
      If a UAS is restricted by regulations from operating in a 
        particular geographic area and/or altitude, it must have 
        technology that cannot be overridden that limits the geographic 
        areas and altitude in which it can operate. This may include 
        permanent locations such as the White House and all public 
        airports, as well as temporary restrictions such as for 
        wildfires or natural disaster areas.
      Near-Term Action: The FAA should publicly demonstrate and promote 
        technologies that are capable of identifying UAS and operator 
        locations. The FAA should ensure that resources for the 
        remainder of fiscal year 2016 are adequate for the development 
        of UAS-centric collision-avoidance technologies, with standards 
        in place for their adoption in fiscal year 2017.
  4. Penalties and Enforcement: UAS pilots must be properly trained and 
        understand the consequences of possible malfunctions. Anyone 
        flying a UAS that is a hazard to other aircraft in the 
        airspace, especially those who choose to do so recklessly near 
        airports, must be identified and appropriately prosecuted. We 
        support the criminalizing of intentionally unsafe operation of 
        UAS and penalties for unintentional unsafe UAS operations. If 
        additional funding is needed for this purpose, Congress should 
        provide the resources needed without delay.
      Near-Term Action: If the FAA intends to rely on first responders 
        to ensure UAS regulatory compliance, the FAA should better 
        inform local, regional, State, and national law-enforcement 
        officials. Providing law-enforcement officials with information 
        that defines unlawful operations, provides peer-to-peer contact 
        information, clarifies their regulatory authority, and other 
        pertinent information is critical for an effective use of first 
        responders to ensure UAS regulatory compliance.
                              conclusions
    American aviation technology is experiencing its own ``space race'' 
akin to the 1960s. With phenomenal growth in aviation science and 
technological advancements in this modern digital age, the results are 
testimony to the advanced applications underpinning NextGen and 
associated programs. These technologies are designed at their core 
architectures to be safe, reliable, and repeatable to provide the 
efficiencies required to maintain the target level of safety as 
aviation transportation continues to grow.
    The target level of safety for commercial air travel in the NAS 
should be proactively, not reactively, protected. We are fully aware 
that there is a strong desire by UAS proponents, and those who wish to 
become operators, to begin flying in the NAS as quickly as possible. 
Clearly, there are commercial, social, business, and international 
competitive advantages to a strong UAS industry. However, government 
and industry must take a longer view of this present state of 
technology to ensure that robust safety systems, in tandem with FAA-
certified redundant systems of UAS, are developed that completely 
integrate with commercial airline operations and, above all, do so 
safely. An imprudent rush to create and implement minimum standards 
will not only harm safety, but potentially produce a setback for the 
future expansion of UAS operations for years to come.
    Data show that UAS sales are skyrocketing while hazardous UAS 
encounters are also rapidly escalating. The need for immediate action 
is clear; but without comprehensive certification and operational rules 
and policies, the challenges we face will only continue to multiply.
    On behalf of the more than 52,000 pilots whose top priority is safe 
transportation, we thank the committee for the opportunity to testify 
on this important subject and look forward to working together to 
ensure the safety of our air transportation system.

                              UAS DANGERS

    Senator Collins. Thank you, Captain, for your testimony.
    Right beside you is a drone that you brought to the 
hearing, an unmanned aircraft system. I wondered if you could 
explain, from a pilot's perspective, what it is like to try to 
spot one of these drones when you are flying, particularly if 
you are flying high when you would not expect a drone of this 
sort to be at that level. And also, what are the dangers? Is 
there a danger of the drone actually being sucked into the 
engine, the way we have heard with flights of birds? Is it the 
lithium battery that makes it particularly a problem? If you 
could take the drone and explain to us what it is like from the 
pilot's perspective, that would be helpful.
    Mr. Canoll. Yes, Senator.
    This particular drone has moderate capabilities, as drones 
go. This UAS can fly to 7,000 feet. You can see it is not 
particularly large. This one is white in color with a little 
bit of tape on it to help reflectivity.
    When we are below 10,000 feet in an airliner, we are in a 
critical phase of flight, either on departure or arrival, so 
the workload in the cockpit is very heavy. We are maneuvering 
the aircraft, configuring the aircraft, completing our 
checklist.
    This is an extremely difficult thing to see even at close 
range. When you see it, you will have very little time to react 
to it. There are systems in the aircraft, such as the traffic 
collision avoidance system (TCAS), that provide us point 
directions, left, right, up, and down, to see other aircraft, 
but these vehicles are not equipped with those transponders 
that would allow us to get a heads-up, ``Oh, there is one about 
2 miles away.'' Even aircraft are sometimes very difficult to 
see. Of course, if it is reduced visibility, it is even harder.
    There are four elements up here.
    The first one is a quarter. I personally have seen what 
this can do to a jet engine, if it goes down an engine. 
Oftentimes, the engine will continue to run, but significant 
damage will have been done to the engine.
    This is a lithium battery that is part of this drone 
system. We removed it to show you the size. If this goes down 
an engine, there is going to be a significant event--
significant event. Also contained within the vehicle are many 
heavy metal parts, including the motors and the connective 
wiring that goes through.
    So many people think of ingestion in the engine as one of 
the highest threats, and I agree that is a very high threat, 
but also impact of the vehicle, even of this weight in a 
critical flight control surface, could cause control issues for 
an aircraft.
    Impact of a vehicle like this into the windscreen of an 
aircraft, beyond the startle factor of any of those impacts, 
would definitely reduce the visibility of the pilots going 
forward, assuming that it did not penetrate into the cockpit.
    When we hit one of these things, it is going to be a 
significant event for the crew to safely land the aircraft.
    Senator Collins. Thank you very much.

                         UAS OPERATOR REGISTRY

    Administrator, I was struck by the news stories that I have 
read that, in most cases, it has been extremely difficult to 
identify the owner of the drone. And, indeed, in Senator 
Feinstein's State on Monday, when the drone knocked out the 
power for hundreds of residents of West Hollywood, I believe 
that law enforcement officials are still unable to identify who 
is the perpetrator of this incident.
    I know you mentioned that you had imposed a substantial 
fine on one operator. But in general, is it difficult for FAA 
and law enforcement to figure out who is the perpetrator, the 
irresponsible operator, when there is an incident? And is that 
the rationale for the registration?
    Mr. Huerta. Thank you, Madam Chairman.
    Yes, identifying the operator represents one of the largest 
challenges as we enforce the safety of the airspace. The 
registration initiative announced by the Secretary and myself 
last week is intended to be a tool in addressing that. It 
provides us a mechanism of tying a specific aircraft to a 
specific operator.
    But I think, equally importantly, what it creates is a 
culture of accountability among the enthusiasts, it becomes 
well-known that if you are to fly these aircraft safely, that 
you have to take appropriate steps, such as registration. It 
creates an overall understanding among the users that if they 
are seeing something that looks unsafe, they have a 
responsibility to speak up and respond to that.
    So it is for that reason that we are taking this action to 
require registration. We recognize that is not the total 
solution, but it is an extremely important step.
    Senator Collins. It seems to me that it would make 
identifying the perpetrator far easier but also that it would 
prompt better behavior. If you know that you are registered and 
tied to a particular unmanned aircraft system, you are less 
likely to engage in the kinds of behavior described by the 
captain.
    Mr. Huerta. That is true. And the registration process 
itself also provides an opportunity for education. As users are 
going through the process of registration, we can ensure that 
they acknowledge and understand what the rules of the air are 
and make certain that they are taking the time to understand 
that operating in the National Airspace System carries with it 
significant responsibility.
    Senator Collins. And just for clarity, I assume that we are 
not talking about registering what used to be called model 
airplane systems that are very tiny, very lightweight, and have 
very little range. Is that accurate?
    Mr. Huerta. Well, there are two dimensions to your 
question. One of the things that we are asking the UAS 
registration task force to specifically make recommendations on 
is where do we draw the line? What classes of unmanned aircraft 
should we include in the registration requirement?
    At the same time, there is in law a current exemption for 
modelers, which does affect the regulatory reach of the agency. 
Nonetheless, we have an authority to require registration of 
all aircraft. In fact, the Model Aircraft Association does, 
support the concept of registration.
    Senator Collins. Thank you. That is helpful.
    Senator Reed.

                            UAS TRANSPONDERS

    Senator Reed. Thank you very much, Madam Chairman.
    Just a follow-up question, Captain Canoll. On aircraft, 
there is a warning system for approaching objects. I have had 
experience in that regard. Is that only triggered if there is a 
transponder or some signaling device on the aircraft--i.e., 
these objects could approach an aircraft without setting off 
the warning system?
    Mr. Canoll. That is correct. Aircraft certified to operate 
in certain airspace have to have what is called an S coded 
transponder, which allows other aircraft to see them on their 
own displays. These vehicles are generally not equipped. Many 
of the test vehicles being operated by Mr. Rogers' group are 
equipped with ADS-B, which is an even more advanced aircraft 
tracking system.
    So there are systems out there. They are just not generally 
deployed.
    Senator Reed. And all the Government unmanned systems have 
these transponder devices on them?
    Mr. Canoll. I am not familiar enough with the military 
drones, but I am sure they must have some sort of transponder 
system.
    Senator Reed. Thank you very much.

                       LAW ENFORCEMENT ENGAGEMENT

    Mr. Huerta, thank you again for your testimony and for your 
service. A lot of these issues are national, but there is a 
local law enforcement aspect to all of these issues. Have you 
been reaching out to local law enforcement with the task force 
in general? And what kind of advice are they giving you in 
terms of the strategy going forward, the problems they are 
seeing and the solutions they are suggesting?
    Mr. Huerta. Yes, we have been reaching out to local law 
enforcement. We do have an active regular level of 
communication with them and their trade associations and 
industry groups. The big challenges they see are some of the 
ones that we have talked about. How do you specifically tie an 
unmanned aircraft to an operator?
    We have also found that there is a requirement on our part 
to educate them on what the penalties are that exist, and on 
what basis they might be able to take action if they see 
something that is causing a significant problem or raising a 
safety hazard.
    I think, in general, they are very mindful of the risks 
that are out there, and they are seeing what we are seeing, 
that the trend in reporting is definitely increasing and it is 
something that we all recognize that we need to work very 
collaboratively to address.
    Senator Reed. Thank you very much.

                        UAS CENTER OF EXCELLENCE

    Mr. Rogers, again, thank you for your great work at the 
center. I presume there is going to be a major role to test 
sort of the strategies that are being adopted by the FAA. Can 
you elaborate a bit about what your plan going forward is, 
trying to evaluate what FAA is doing and advise them?
    Mr. Rogers. Yes, thank you, Senator Reed.
    Within the ASSURE program, there are two pieces of this. 
There is this test site program, and there is the ASSURE 
program.
    On the ASSURE side first, the ASSURE program takes its 
marching orders from the FAA, so what happens is from a process 
they submit, effectively, white papers back up to the FAA. We 
receive feedback from the FAA. It is a very collaborative 
process. Those are then approved and funded under the ASSURE 
program.
    So, yes, what is happening is we are receiving those 
requirements. They are agreed on. We actually will go out and 
talk to industry partners with those, because under the ASSURE 
program, there is a requirement for a 1:1 cost match, so what 
we are doing really needs to align under many areas. Then we go 
out and execute those missions.
    What I think will very naturally occur then is the research 
that is being conducted under ASSURE will flow out to the six 
different test sites then for actual flight operations and real 
on-the-ground testing.
    So from a very quick snapshot of the process, that is the 
process.
    Senator Reed. Thank you, Mr. Rogers.

                    SMALL UAS RULE AND REGISTRATION

    Just a final question for Director Huerta, and that is, I 
presume part of these regulations that you are going to 
promulgate next spring involve some sort of basic registration 
of the pilot or licensing of the pilot. Is that contemplated?
    Mr. Huerta. That is correct. The scope of the small UAS 
rule is for commercial operations. In our proposal, we propose 
that the operator of an unmanned aircraft would be required to 
hold a certificate, which is not necessarily a full-blown pilot 
certificate, but it would require that the operator have a 
knowledge and understanding of the rules of the air and how to 
conduct safe operations in the national airspace.
    Senator Reed. And how far will this extend, just to be 
absolutely sure? You will be able to buy something like that 
over the Internet shortly. You buy it, and you are a 22-year-
old, et cetera, and you are not a commercial enterprise. This 
is recreation. Will you in any way be required to get a 
certificate or get training?
    Mr. Huerta. Within the scope of this rule, no. The rule 
deals only with commercial operations of unmanned aircraft. The 
larger question of what constitutes qualifications to safely 
operate unmanned aircraft is a larger question. It is one that 
we are doing a lot of work with our industry partners.
    Senator Reed. But that is a big, big question, as we see 
the acceleration or the deployment of these systems nationwide 
into the hands of hobbyists, just routine gifts. I can, 
frankly, this holiday season, open up a present and there it 
is. ``Hey, I am going to take it out and fly it. It sounds like 
fun.'' Read the instructions and----
    Mr. Huerta. The registration process starts to address that 
issue. As I mentioned earlier, we believe that the registration 
process itself provides us an opportunity to educate operators 
on safe operation, the rules of the air. We have done a lot of 
this through the Know Before You Fly campaign. We would like to 
take it a step further, that as the individual is registering 
their unmanned aircraft, they are required as part of that 
process to acknowledge that they understand the rules, that 
they have studied them, and that they will operate safely.
    Senator Reed. So the whole spectrum of when you decide what 
category of device is in or out, if you have a device, you have 
to register it.
    Mr. Huerta. Yes.
    Senator Reed. And that registration will include 
acknowledgment of the rules of the road?
    Mr. Huerta. That is something that we believe is, 
certainly, an opportunity. We are asking the task force to look 
at that question specifically, as well as what classes we want 
to require registration for.
    Senator Reed. Thank you very much.
    Thank you, Madam Chairman.
    Senator Collins. Thank you, Senator Reed.
    I am very pleased to welcome the chairman of the 
Appropriations Committee, Senator Cochran.
    Senator Cochran. Thank you, Madam Chairman.

                        UAS REGULATORY FRAMEWORK

    We appreciate this panel being here today to help us 
understand the progress or lack of progress that we are all 
interested in making in ensuring that airspace is safe for 
travel, and unmanned vehicles are licensed or in some way 
monitored to ensure their safety for the air-traveling public.
    It is a daunting undertaking. My first response is, why are 
you agreeing to serve in such a difficult and challenging area 
of rulemaking?
    Are we wasting our time and money? Do you see a path toward 
a regulatory framework that would help ensure a higher level of 
safety than we now have? Are we making progress in that 
direction? Or are we expecting too much?
    Mr. Huerta. Chairman Cochran, I think we are making 
significant progress in that area. This has been characterized 
by some as really being a Wright brothers moment in aviation of 
our generation. It is a technology that shows huge potential, 
and it is evolving at the speed of one's imagination. 
Government regulation by its very nature has always been 
intended to be a slow and deliberative process to consider a 
full scope of interests that are out there.
    So it is for that reason that the agency and its industry 
partners have adopted the multifaceted approach of regulation; 
issuing permits for operations that we believe can be safely 
carried out through the exemption process; the education 
process that we are taking active action with our industry 
partners; and then balancing it with enforcement when we see 
careless and reckless endangerment of aircraft, as we have seen 
with some of the enforcement cases that we have taken.
    I think that what we all have a responsibility to do is 
recognize the full and complete scope of this. Eighteen months 
ago, there was a lot of discussion about concerns relating to 
privacy, which is an extremely important public policy concern; 
6 months later, a lot of focus on how we accelerate the 
deployment of unmanned aircraft into our airspace system; now, 
more recently, very public debate and concern about safety.
    The reality is that all of those are important issues, and 
finding that right balance between all those interests and 
maintaining the safety of our airspace has to be our collective 
highest priority.
    So it is for that reason that the agency is very focused on 
not only what we can do through our regulatory process, but how 
we build the partnerships across industry with you and your 
colleagues here on Capitol Hill, as well as other agencies of 
Government, to address this whole scope of issues.
    Senator Cochran. Thank you.
    Thank you, Madam Chair.
    Senator Collins. Thank you.
    I am pleased to recognize Senator Feinstein, who has been a 
real leader in this area and has introduced legislation that is 
pending before the Commerce Committee.

                  ADDITIONAL UAS REGULATORY AUTHORITY

    Senator Feinstein. Thank you very much, Madam Chairman. I 
very much appreciate that.
    Let me begin by thanking you, Captain Canoll, for your 
testimony today. The Air Line Pilots Association was very 
helpful to my office in providing technical expertise and real-
life experience that informed the drafting of our Consumer 
Drone Safety Act, and I am very grateful for the pilots' 
continuing support.
    Mr. Huerta, I do not share your excitement over the drone. 
Perhaps, like the chairman of this committee, we serve in a 
different capacity where we see harm, dramatic harm, that can 
be done by drones and the re-rigging of drones, and those 
drones falling into some very bad hands.
    So this is a new industry. It is an unregulated industry. 
You do not have the authority currently to do anything to see 
that that does not happen. This is of serious and grave concern 
to me.
    Two States represent 40 percent of drone incidents. The 
largest State is California.
    I would like, Madam Chairman, if I may, to submit a letter 
from the California Department of Forestry and Fire Protection 
about a drone. They had to stop for 20 minutes fighting a fire 
from the air because of a drone. And in those 20 minutes, 
automobiles on a highway were engulfed in flame. I would like 
that to go into the record.
    [The letter follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Feinstein. I would like to submit a letter from the 
agricultural association of the Nation, the National 
Agricultural Aviation Association; a letter from the American 
Association of Airport Executives with their concern; the 
International Association of Amusement Parks; the Peace 
Officers Research Association, which represents 67,000 officers 
in our State; and the Golden Gate Bridge Association.
    Senator Collins. Without objection.
    [The letters follow:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Feinstein. Thank you.
    I would like to read just one paragraph, which I think will 
let members know about--this is the Golden Gate Bridge--a 
significant concern about drones falling near the bridge is the 
safety of the drivers, pedestrians, and bicyclists who use our 
bridge. We routinely observe drones flying over the traffic and 
thousands of pedestrians and bicycles who use the sidewalks. 
These aircraft are often flown by inexperienced hobbyists.
    In one recent incident, an inexperienced drone hobbyist 
crashed an inexpensive quadcopter purchased online onto the 
bridge roadway. Fortunately, no vehicles, bicyclists, or 
pedestrians were hit, and no one was injured. But it is easy to 
understand the havoc that could have been wrought.
    Now the Air Line Pilots Association I think have the right 
point of view. Without regulation, Mr. Huerta, it is only a 
question of time before a commercial airliner comes down. The 
cause? One of those.
    I deeply believe that, and I want the record to reflect 
that.
    What we have tried to do, and the FAA has been helpful to 
us, and I want to thank you for that, is to provide unambiguous 
authority for you to require drone manufacturers to install 
some basic safeguards and also distribute educational material 
to consumers. We hope to have this bill included in the FAA 
reauthorization in March.
    So I would like to ask you this question. Would additional 
regulatory authority from Congress be helpful to you in 
establishing comprehensive safety requirements for all types of 
drones, regardless of whether they are flown for commercial or 
recreational purposes?
    Mr. Huerta. First of all, Senator Feinstein, I would like 
to say that I do share your concern about safety. We want to 
ensure the safest operation of the airspace. And we are taking 
a lot of steps, as you noted, and we have been working with 
your office in order to address how we ensure safe integration 
of unmanned aircraft into our National Airspace System.
    I think that there are, things that we need to look at that 
were never anticipated by the current regulatory framework of 
the FAA. Current requirements are that all aircraft must be 
registered. We deal with the certification and qualification of 
the operators of those. But Congress has provided to us 
exemptions, for example, for modelers, and many modeling 
organizations do provide a great deal of support to ensure 
safety.
    But it does create out there, perhaps, sometimes a sense of 
confusion that we all have a responsibility to ensure is not 
there. Everyone needs to understand what the rules are to 
operate in the National Airspace System. Everyone needs to 
understand that if you are acting unsafely and not operating 
safely within the National Airspace System, that we will take 
action.
    There are existing criminal penalties. There are existing 
civil penalties. And we want to leverage those to the maximum 
extent, but we will continue to work with your office as you 
are focusing on what I think is an extremely important issue.
    Senator Feinstein. Well, thank you very much.
    Incidentally, Madam Chairman, CAL FIRE, which is our big 
State fire department, in these letters documents an incident 
where a drone was 10 feet from a plane fighting a fire. The 
pilot had to take very strong evasive action. He was able to do 
it, but, nonetheless, nobody knows anything about the drone, 
who owns it, who is responsible, whether they were negligent.
    I just want to say I hope the industry is not going to 
fight this, because what is going to happen is we are going to 
have a catastrophe, and then the Government will likely 
overreact. So I hope that as a product of this hearing, and 
others, Madam Chairman, that there will be cooperation from the 
industry so that we get a prudent regulatory authority from the 
FAA that currently now can do virtually nothing. And I thank 
you.
    Senator Collins. Thank you.
    Senator Blunt.

                 UAS UNIVERSITY TRAINING AND READINESS

    Senator Blunt. Thank you, Chairman. I am sorry I had 
another hearing in Commerce to be at, but I am really glad you 
decided to hold this hearing.
    Senator Feinstein and I in the cyber debate that we had on 
the floor made the point that she just made. We both made it 
over the last few days. When there is an incident, the one 
thing you can assume that Congress will do is overreact.
    So talking to you and others now, the panel you have here 
today, and others now about what we ought to be doing before 
there is a problem, and how we avoid those problems from 
happening, I think is particularly important. It just seems to 
me that this is an accident waiting to happen. Whether it is an 
airplane or a drone used as a delivery device for something you 
want delivered, this is a very important discussion, I think, 
for us to have.
    Mr. Rogers, one of the universities in my State, Southeast 
Missouri State University at Cape Girardeau, the new president 
there has expressed a lot of interest in the university 
becoming one of the places where you could get training not 
only to be an appropriately trained pilot of drones but also 
appropriately trained for maintenance, hardware, software 
applications.
    Do you have a sense of how that discussion is going around 
the country, at other universities? Where are people talking 
about doing this? And what can we do to encourage more of that 
kind of activity? This is obviously an area that is going to 
grow and grow rapidly. What do we need to do to have better 
places to learn how to do what needs to be done in this area?
    Mr. Rogers. Senator Blunt, thank you.
    So what we are seeing, from an educational perspective, is 
an evolution of manned aviation programs who are taking a hard 
look at unmanned programs. There are a couple great examples of 
that, the University of North Dakota's program, Kansas State's 
program.
    Their challenge is, because of the regulatory environment, 
they are unable to actually go fly. So they can actually do a 
lot of the on-the-ground training, do the things that are 
necessary, but actually going and executing the flight mission 
is problematic from a regulatory perspective, because that is 
deemed to be a commercial activity. The part 333 exemptions are 
going to help in that regard.
    But you are seeing an uptick in interest in these kinds of 
programs standing up. In Fairbanks at the University of Alaska 
Fairbanks, where I am from, our community college is actually 
starting a program now just to do that.
    So there is a significant amount of interest for people 
like me who are actually hiring people to go out and fly our 
aircraft to actually be part of our program. I have a keen 
interest in graduates who we can bring on board to actually be 
part of an operational program. Industry is looking for the 
same thing.
    So there is a significant amount of interest in a good, 
solid educational program.
    Maintenance is a big part of that. If you look at one of 
the eight original programs under ASSURE that were funded as 
part of the original $5 million, there is a program under 
Kansas State that is actually--you can look at it, UAS 
maintenance, modification, repair, inspection, training, and 
certification, actually establishing a set of standards for 
that.
    So lots and lots of interest in it, sir.
    Senator Blunt. Well, it sounds like maybe some of this has 
been discussed already today. I am sure it has. But since I did 
not get to hear it, Mr. Huerta, when Southeast Missouri State 
University began the process of trying to apply for what they 
thought they needed to do, what they hoped to do, they could 
not get the waiver because their activity is educational, not 
commercial. So what are we doing there to meet this need that 
Marty Rogers was discussing?
    Mr. Huerta. Senator Blunt, I think we were able to address 
the specific concern that this institution had, and that was, 
what constitutes aeronautical research? I think that there was 
originally a misunderstanding that aeronautical research was 
more narrowly construed--for example, research into the 
performance of a specific aircraft as opposed to, more broadly, 
research that would support aeronautical activity.
    I think that we have been in discussions with them, and I 
think that we clarified that point. If there is still 
confusion, we would be happy to talk to them.
    Senator Blunt. Good. Do we need to do anything to clarify 
what you think needs to be done here? Do you need more specific 
authority so that these questions are easily answered? I mean, 
clearly, the ability to be the pilot, the ability to maintain 
the computer software necessary, all you would think would take 
a lot of focus on training and readiness right now, if we are 
going to do this the right way and in the way that people would 
expect it to be done. Do you need anything from the Congress 
that you currently do not have?
    Mr. Huerta. Current law requires that if anyone is carrying 
out any aviation service for hire, there are two requirements 
that need to be met: a certified pilot and a certified 
aircraft. That is where the commercial guideline comes in. That 
is exactly the exemption that we offer under section 333.
    So if an individual applies under section 333 to conduct a 
commercial operation, the Secretary was granted by Congress the 
ability to issue waivers that effectively exempt them from 
those two activities.
    As I testified to earlier, we have granted over 2,000 
specific exemptions to address that issue. I think what you 
heard from Mr. Rogers is that there is a desire on the part of 
some in the industry to have that made a little more flexible 
so that they do not have to go through the individual exemption 
process on a case-by-case basis.
    Our question about that is ensuring that there is a safety 
mitigation plan in place in order to enable that to go forward. 
But that is one example.
    Senator Blunt. Is this something that we need to look at 
specifically in FAA reauthorization?
    Mr. Huerta. It, certainly, is something that we would be 
happy to talk to your staff about and provide technical support 
for.
    Senator Blunt. All right, I am very interested, and we will 
talk about that.
    Thank you, Chairman.
    Senator Collins. Thank you.

                    GEO-FENCING TECHNOLOGY RESEARCH

    Mr. Rogers, what is the status of the research into geo-
fencing technology? And do you believe that such technology 
would resolve the issues with unmanned aircraft flying too 
close to airports and higher than 400 feet?
    Mr. Rogers. Madam Chair, thank you.
    Yes, under the original ASSURE program, there were no geo-
fencing tasks in the original eight projects that were out 
there. So we are currently not engaged in geo-fencing research.
    However, on one end of the spectrum, from the systems that 
are actually on board the aircraft, geo-fencing technology has 
been around for some years. What you are referring to is 
actually an external geo-fencing to actually keep aircraft from 
coming into the area.
    Senator Collins. Correct.
    Mr. Huerta. We are very much interested in that. It holds a 
tremendous amount of promise as part of a layer of safety 
systems. I do not think alone, but as part of a layer of safety 
systems for mitigation, we are very interested.
    Senator Collins. Captain Canoll, should certain technology 
be required to be installed, such as transponders or some sort 
of geo-fencing technology on the drones?
    Mr. Canoll. Yes, I believe if you bifurcate, separate into 
two categories a vehicle with the capability to fly into the 
national airspace or with it being equipped to actually operate 
in the national airspace, obviously, it needs to have 
communication systems on board, including transponders, so it 
can be seen by the pilots and the air traffic controllers.
    Those vehicles that are not intended to operate in the 
national airspace, that is shared airspace, need to be equipped 
with redundant systems to ensure they do not blunder into the 
airspace, be that external geo-fencing, internal geo-fencing, 
altitude restriction equipment on the aircraft that would 
restrict it from transgressing into the space my members fly 
in.

                         UAS TASK FORCE ISSUES

    Senator Collins. Administrator, is the task force looking 
at those technology issues in addition to the registration and 
certification issues?
    Mr. Huerta. The registration task force is looking 
specifically at how we best register UAS and how we get this in 
place quickly. But through our cooperative efforts through the 
Center of Excellence and its partner universities, our UAS test 
sites, we have a very robust research agenda where we are 
looking at the full scope of capabilities that are out there.
    We also have our Pathfinder program where we work with 
specific members of industry who have proposals and who are 
asking us to grant them the authority to test promising 
technologies that might be applied to address a lot of the 
things that we are talking about here.
    So the answer is yes. These are things that we are 
studying, not specifically through the task force, but through 
other industry and Government partnerships.

                 AIR TRAFFIC CONTROL SYSTEM FOR DRONES

    Senator Collins. Let me follow up on that last point. The 
private sector has increasingly shown an interest in the future 
impact of unmanned aircraft systems and what the implications 
could be for their businesses. It is my understanding that 
Amazon and Google are collaborating with NASA to develop an 
automated air traffic control system that would be specifically 
for drones.
    How would that work? And what is the status of that?
    Mr. Huerta. The activity is at an early stage, and the FAA 
is supportive and collaborating in that effort. It is intended 
to focus on automated systems of air traffic management that 
would deal with lower altitude flights and how to de-conflict 
this traffic and ensure that it can be conducted safely.
    There are a number of questions that are raised as part of 
that, as Captain Canoll alluded to. How does it relate to 
adjacent airspace? And how does it relate to aircraft that 
might be transiting through that airspace going to and from 
airports?
    I think that it is extremely promising and important to 
look at a wide variety of different technologies. I believe 
that is important to understand them in their full context. We 
can deploy technology, and let's say it works below 400 feet, 
but we also have to consider that there are aircraft that are 
transiting through 400 feet, traveling to and from airports. 
How any technology we deploy interacts with those aircraft with 
avionics systems on the ground and with the full scope of 
safety systems that we put in place for many years is an 
extremely important research question.
    Senator Collins. Thank you.
    Senator Reed.
    Senator Reed. I notice that Senator Daines arrived. I 
already have had my first round.
    Senator Collins. Thank you.
    Senator Daines, welcome.
    Senator Daines. Thank you, Chairman Collins.

                        UAS REGISTRY TIMELINESS

    I continue to hear from my constituents and stakeholders 
back in Montana it is becoming increasingly apparent that the 
integration of unmanned aerial vehicles (UAVs) into our 
national airspace needs to be done in a timely as well as very 
prudent and thoughtful manner.
    I am an engineer graduate from Montana State University. We 
are proud of the fact we are one of the core universities 
selected with Alliance for System Safety UAS Research 
Excellence, an FAA Center of Excellence team. What we find is 
that because of our great trout fishing, skiing, and mountain 
climbing, we can attract the best minds who also enjoy the best 
lifestyle, and it is a nice intersection.
    It is a great host for this research in Montana, and we 
have a deep commitment in my State to protecting individual 
liberties as well as the right to privacy.
    My first question is for Mr. Huerta. I heard from some 
Montana businesses that the FAA delays are impeding 
development. Bridger Aerospace in my hometown of Bozeman is 
innovating and applying UAVs to make a variety of jobs safer 
and more efficient, just like you mentioned in your testimony, 
whether it is search and rescue missions, as well as for 
agriculture research. They created, in fact, nearly 20 new jobs 
this year, but their growth and applications could be even 
greater.
    I am told that once the FAA grants a commercial exemption, 
it can take 4 months to register and receive a tail number. My 
understanding is the process is exactly the same whether it is 
a 5-pound UAV or a 747.
    What is the FAA doing to process these smaller commercial 
requests in a more timely manner?
    Mr. Huerta. Thank you, Senator Daines.
    Actually, this is a question that we are asking the 
registration task force to look at. All of our commercial 
applicants through the section 333 process are required to 
register their aircraft. You are correct. The process is the 
same process that you would use to register a more conventional 
aircraft. That process was largely designed years ago to convey 
a property interest, financing and everything associated with 
how you purchase an aircraft.
    We envision the registration process the Secretary and I 
announced last week would really be a much more straightforward 
and simplified process. One of the things that we like to do is 
pick up some of these smaller type aircraft and use a different 
process that is more focused on how we establish the ownership.
    Senator Daines. What kind of timeline do you think that 
will be before we can see a positive outcome here?
    Mr. Huerta. Very soon. We have already announced the task 
force, and the work is already underway. The Secretary has 
asked for a report by the 20th of November, and it is our goal 
to get something in place very soon thereafter.
    Senator Daines. I am glad to hear that.

                     UAS REGULATIONS FOR HOBBYISTS

    Hobbyists and entrepreneurs are treated differently, 
despite oftentimes operating similar-sized UAVs. If the exact 
same UAV up to 55 pounds is used by a hobbyist, there are no 
bureaucratic hurdles. Shouldn't there be similar regulations 
for small commercial UAVs as there are for hobbyists?
    Mr. Huerta. The principal thing that the agency would be 
concerned about is how it can be conducted safely. But you are 
correct that hobbyists enjoy an exemption that was granted by 
Congress a number of years ago from certain regulatory 
oversight of the FAA.
    They do, however, conform to community-based standards, and 
we work actively with the hobbyist industry to do that.
    Commercial operations, as I testified to earlier, carry 
with them a legal requirement to have both the certified 
operator and a certified aircraft, but the way we address that 
issue is through the section 333 exemption process.
    Certainly, if you or any of your colleagues have any 
interest in addressing that, we would be happy to provide 
technical assistance to you as you consider that.
    Senator Daines. Thank you. I appreciate that.

                          UAS PRIVACY CONCERNS

    Another question regarding privacy, we out in the West 
share a very independent and self-sufficient spirit. Privacy is 
very critical. Montana implemented its first laws in 2013 that 
prohibit private citizens from using drones to spy and 
requiring police to obtain warrants before using drones for 
surveillance.
    What is the FAA doing to address the privacy concerns 
related to drones?
    Mr. Huerta. The privacy concern is an extremely important 
public policy concern, but it is a concern that goes far beyond 
the authorities and the capabilities of the FAA.
    On the same day that we announced our Notice of Proposed 
rulemaking on the small UAS rule, the President announced the 
creation of a Federal task force. He tasked the U.S. Department 
of Commerce through the National Telecommunications and 
Information Administration (NTIA) to provide leadership on this 
whole question of how we best address this question of privacy. 
Are existing authorities that are out there sufficient, or do 
we need to do more?
    NTIA has had a number of public meetings in this area, and 
the FAA has been an active participant in them.
    They are looking beyond the Federal interests to also what 
are the State and local protections that exist out there for 
individuals?
    There are some that have suggested that perhaps the FAA 
should regulate specific uses of unmanned aircraft with the 
intent of protecting privacy. I believe that that would not 
necessarily be an appropriate course of action, because overall 
structure of the FAA does not regulate anything that flies in 
the airspace for its use. We regulate it for its safety.
    So it is for that reason that we think that bringing our 
other Federal partners as well as our State and local partners 
into that discussion is extremely important in order to ensure 
that we have the appropriate levels of protection of individual 
civil liberties.
    Senator Daines. Thank you.
    Senator Collins. Thank you very much, Senator Daines.
    Senator Reed.

                UAS COMPLIANCE STANDARDS AND REGULATIONS

    Senator Reed. Thank you very much, Madam Chairman.
    I want to follow up the line of questioning the chairman 
had.
    It seems to me that we are at a very critical point. We are 
going down a regulatory path involving registration, 
potentially licensing, of literally millions of potential 
operators. And the other path is a more technological path of 
putting in at the factory, if you will, a device that will warn 
other aircraft, not interfere with ground systems, et cetera.
    One question I think that you and the Secretary have to 
have is, what is the most effective way to deal with this 
problem that is going to get more complicated, not less, going 
forward? Is it this regulatory path or this regulatory/
technological path? So your comments would be appreciated.
    And just a final point, if that is the case, right now 
there is a see-and-avoid requirement in the air. I think we 
want to do work to a detect-and-avoid. But there is going to 
have to be a lot of FAA standard-making in terms of technology, 
what works. Mr. Rogers' operators are going to have to do some 
testing, et cetera, because the manufacturers will come in, 
``If you tell us what we have to put in, we will put it in, but 
you have to tell us.''
    So you might comment, Mr. Director.
    Mr. Huerta. I will take the second part of the question 
first, and that is technical standards. Senator Reed, I think 
as you are well-aware, the FAA has always worked 
collaboratively with industry in the development of technical 
standards through the well-established standard-setting 
organizations such as ASTM, such as RTCA. Working 
collaboratively with the Center of Excellence, this is a really 
important question of what are industry consensus-based 
standards that we might choose to apply.
    The first part of your question dealt with, how do we 
actually implement it? How do we make it stick? We have two 
paths, and we need to pursue both.
    One is to encourage voluntary compliance on the part of the 
industry. I think that if industry has a part of the 
development of those standards, that is a much easier thing to 
help us achieve. So that is why working collaboratively with 
industry becomes very, very important.
    Taking the step of requiring it, which is an authority that 
we currently have through the certification of aircraft, that 
does, in fact, require regulation and for us to promulgate a 
rule. It is a process that by its very nature was always 
intended to be a deliberative process, so that takes time.
    So I think that the approach that we have to follow is, how 
can we encourage voluntary compliance with standards as they 
are developed pending the development of final rules, which 
make them a requirement to be manufactured in the deployment of 
these unmanned aircraft?
    I think the other point I would want to make about 
standards, though, and regulations, it is important that we, in 
going through that process, think broadly about where 
technology is likely to evolve. Something that represents what 
we might think is a silver bullet today in the way of a 
promising technology could very well be rapidly overcome by 
further developments in technology.
    So it is for that reason that we would support performance-
based standards, performance-based rules. This is the kind of 
problem we are trying to solve.
    And, industry, we are looking to you to demonstrate that 
you have a technology that can address this particular 
requirement, as opposed to a specific installation of a 
particular type of technology.
    Now that is always a balance, because in addition to having 
a level of performance, we also want to have a level of 
interoperability. But these are factors that we have to 
consider as we look to standards and rules.

                      UAS INTERAGENCY COOPERATION

    Senator Reed. Just changing slightly the topic, you said 
several times that this interagency process you are pursuing, 
and I commend you for that, with DOD and DHS, et cetera. First, 
is that working well? And how does that give you sort of 
insight into pursuing a broader partnership with local law 
enforcement, with the Department of Justice with respect to 
privacy rights, all these multiple issues you face?
    Mr. Huerta. I think what they all have in common is what we 
are trying to do is cast as broad a net as possible to ensure 
that we have methods and links to ensure that we are hearing 
about things that our agency partners are dealing with across 
the Government.
    We did sign a memorandum of understanding with the Defense 
Department that was very focused on how we can share 
information on what their experience is with the use of 
Government unmanned aircraft systems for defense purposes. I 
think that is a partnership that is working pretty well. They 
have specific mission requirements, though, that are very, very 
different from the civil operators that are seeking to operate 
within the National Airspace System, and they have different 
challenges that they are trying to overcome.
    We find DOD to be a very responsible operator, and so it is 
really how we enable their operations and their work, and how 
we learn from it.
    With local law enforcement, the challenge is how we address 
the bad actors, how we address the proliferation of this around 
critical facilities and ensuring that they have what they need 
in order to appropriately respond.
    So maintaining that communication is extremely important.
    Senator Reed. Thank you.
    Thank you, Madam Chairman.
    Senator Collins. Thank you.
    Senator Cochran.

                   UAS CENTER OF EXCELLENCE BENEFITS

    Senator Cochran. Madam Chair, thank you.
    And thank you all for helping us better understand what our 
needs are, in terms of providing funding for important programs 
such as the Center of Excellence program, where an effort is 
being made to address unmanned aircraft system safety issues.
    Is this worthwhile, in terms of Federal support monetarily, 
encouraging research that can be translated into regulations or 
laws or other ways of supporting the industries involved in 
this regulatory regime?
    Mr. Huerta. Chairman Cochran, perhaps I could take the 
Government perspective and then ask the Center of Excellence to 
talk about the research perspective, and the pilots to talk 
about how it might benefit them.
    But, certainly, from the agency standpoint, this work is 
extremely important, and I think it is extremely valuable from 
a public policy standpoint.
    The Center of Excellence is supporting standards 
development, as I talked about before. They are also exploring 
operations beyond the parameter of the small UAS rule, which we 
have always maintained is an important step but not the last 
step. So things like beyond line-of-sight operations, how do we 
get comfortable that the technology exists to enable us to 
authorize those operations? The COE is actively involved in 
evaluating safety-enhancing technologies by assessing how 
equipment on manned aircraft might adapt to or how it would 
interact with technology solutions that are being considered 
for unmanned aircraft.
    Then we have asked them to look at important questions on 
what is the actual risk that is posed, how do we model that, 
how do we study it, how do we understand what this risk looks 
like by examining the severity of airborne and the potential 
for ground-based collisions of these aircraft?
    So all of this work is extremely important to illuminate 
the public policy debate and to help us promulgate smart 
regulations in the years ahead.
    Senator Cochran. Do any other panelists wish to comment on 
that?
    Mr. Rogers. If you do not mind, Senator Cochran, just real 
quick on this. I think the center serves several different 
functions. I think one of them is, of course, the research that 
we are conducting. Part of this is answering questions. We have 
such a void of information on some of these areas, such as air-
to-air, such as air-to-ground impact, that the ASSURE program 
is going to help us answer that.
    This lack of knowledge, basic knowledge about some of these 
things, actually makes us pretty nervous. We just do not know 
the answers to some of these things. But in short order, under 
the ASSURE program, we are going to know that. I think knowing 
the answers to these things, even if we do not like the 
answers, knowing the answers at least is going to give us a 
place to start and go forward from.
    To your point about the center, if this is worth the 
effort, I generally believe it is because one of the things we 
are seeing, since the center was awarded, is this confluence of 
voices that never really had a place to talk from before. We 
have 22 universities, over 100 industry partners, and people 
that were, unfortunately, siloed before, that they were doing 
their thing their way over here and not necessarily talking to 
somebody over here. A lot of it had to do with competition.
    But what we are seeing is this converging of industry 
interests, the FAA's interest, and the center point for that is 
actually the Center of Excellence.
    So instead of us calling people and saying, hey, can you 
talk to us about what you are doing and let's get past whatever 
intellectual property issues you are talking about, they are 
calling us every day wanting to find out how they can be a part 
of us, expressing some of their concerns, some of their issues.
    So the COE has become a binder, a glue, for the entire UAS 
community--Government, academia, and industry--that is now 
forming up. And we are seeing it every day.
    Even if you take part of the research side of this away and 
say here is this binding agent to pull all these voices 
together, it is worth doing this just for that, by itself, 
nothing else.
    Mr. Canoll. Mr. Chairman, I agree completely.
    Government does have a role here, as do the manufacturers, 
the regulators, and the operators. There are many challenges 
for technology that needs to be overseen as it is developed as 
these vehicles find their way into routine operations in the 
national airspace.
    One example is this issue of latency that the military 
deals with in long-range operations.
    In my aircraft, when I get a warning from an air traffic 
controller to turn right or my automated onboard systems say 
you have a traffic resolution advisory in this direction, climb 
or descend, my procedures call that I actually maneuver the 
aircraft within 2 seconds of that warning coming.
    The latency issue for remotely piloted vehicle is the 
vehicle can sense the problem; the command can be issued to the 
operator; and then oftentimes it has to go through a 
communications link, either terrestrial or satellite-based, to 
reach the vehicle. That is going to take significantly longer 
than 2 seconds. That does not meet the standard of being able 
to avoid and operate safely within the national airspace.
    Another issue is an autonomous vehicle, more akin to a 
drone flying down a route trying to deliver a package or 
something, or to deliver life-saving medicine. It encounters 
one of the transitory vehicles or airplanes that the 
administrator referred to, like a medevac helicopter trying to 
save a life due to an auto accident that is operating at 100 
feet off the ground. How does his vehicle that is autonomous 
sense and avoid like a manned vehicle would and know that it 
has to avoid this conflict of the helicopter along its route of 
flight?
    These are technologies that we are not quite there yet on, 
and the center is going to help us do it, and everyone needs to 
participate.
    Senator Cochran. Thank you.
    Thank you very much, Madam Chair.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Collins. Thank you, Mr. Chairman.
    I very much appreciate the participation of our witnesses 
today, as we explore this very interesting new world, with an 
emphasis on safety and yet with the goal of not stifling 
legitimate uses and innovation. But as I stated in my opening 
remarks, safety has to be the top priority.
    We are going to continue to work on this issue and many of 
us have additional questions that we will be submitting for the 
hearing record. The hearing record will remain open until next 
Friday, November 6.
    [The following questions were not asked at the hearing, but 
were submitted to the Department subsequent to the hearing:]
               Questions Submitted to Hon. Michael Huerta
             Question Submitted by Senator Susan M. Collins
    Question. Last year, the DOT Office of Inspector General issued a 
report stating that despite ``many years of working with industry, the 
FAA has not reached consensus on standards for technology that would 
enable UAS to detect and avoid other aircraft and ensure reliable data 
links between ground stations and the unmanned aircraft they control.'' 
Congress originally mandated that the FAA be prepared to fully 
integrate UAS into the national airspace by the end of September 2015.
    Mr. Huerta, has the FAA reached a consensus on this technology to 
facilitate the integration of UAS into our airspace that will also 
consider the safety of other aircraft?
    Answer. The FAA's objective in working through organizations such 
as RTCA and ASTM International is to develop a set of technology 
standards to ensure safety while maintaining flexibility for industry 
innovation. Close coordination and cooperation between industry and 
government are necessary to ensure that these standards are informed by 
relevant research. The FAA works with both NASA and the Department of 
Defense to ensure consistency across the Federal Government. Minimum 
Operational Performance Standards (MOPS) have been drafted for both 
Detect and Avoid (DAA) and Command and Control (C2) technologies, and 
must now undergo extensive validation testing prior to finalization.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
                           pathfinder funding
    Question. The FAA touts its Pathfinder Program as a partnership 
with industry to encourage research and innovation that will enable 
``advanced'' UAS operations, which is to say, UAS operations beyond 
those contemplated to be permitted by the pending ``small drone rule.'' 
To date, the FAA has announced only a few Pathfinder research 
agreements, the initial three announced in May (with CNN, 
PrecisionHawk, and BNSF Railroad) and the recently announced agreement 
with CACI International Inc. In the interim, companies that have 
approached the FAA with research proposals for the Pathfinder program 
have been told the FAA does not have sufficient resources to enter into 
additional projects and have been told to pursue their research through 
the UAS test sites. Is the Pathfinder program underfunded and how does 
the FAA decide what industries or companies get to conduct their 
research in direct partnership with the FAA?
    Answer. The FAA does not have any appropriated funding to support 
the Pathfinder Program. The companies currently in the FAA's Pathfinder 
Program approached the FAA seeking to advance UAS integration. The FAA 
executed a research agreement with each company, which establishes an 
in-kind partnership for collaboration. While these partnerships do not 
involve any direct funding to the companies involved, the FAA's support 
for this program is staff intensive.
  beyond visual line of sight--disaster recovery and first responders
    Question. Does the FAA believe that it has the authority under 
current law to approve beyond visual line of sight (BVLOS) UAS 
operations by exemption (i.e., without an additional rulemaking 
process)? If so, are there not classes of operators or areas of 
operation, such as disaster recovery efforts, first responder actions, 
or very sparsely populated terrain or airspace, where the potential 
benefits of BVLOS operations outweigh the risks even with currently 
available technology?
    Answer. The FAA is taking an incremental approach to the safe 
integration of UAS into the National Airspace System. As part of our 
Pathfinder Program, BNSF Railway is exploring BVLOS operations for 
railway inspections. The information we obtain as part of this program 
will help guide the agency's efforts to permit BVLOS operations in the 
NAS.
                     aircraft registration process
    Question. Last week, the Department of Transportation and the FAA 
announced the formation of a task force to develop recommendations for 
a registration process for UAS. In conjunction with that announcement, 
the Department and the FAA published a ``Clarification and Request for 
Information'' in the Federal Register. Assuming that the expedited 
process is justified and that the basis for extending the registration 
requirement to ``model'' aircraft is sound, despite the restriction set 
forth in Section 336 of the FAA Modernization and Reform Act of 2012, 
will the entire cost of the new registration process be recovered by 
the registration fees? Moreover, do you expect that this process will 
be far more expeditious than the current registration process?
    Answer. On December 14, 2015, the FAA published an Interim Final 
Rule announcing a new web-based aircraft registration process for small 
UAS, including small UAS operated as model aircraft. FAA expects that 
this streamlined, simple registration process will be able to 
accommodate a high volume of new registrations and will be more 
efficient than the current paper-based registration process. FAA 
estimates the new web-based system will take an average of 5 minutes 
for a model aircraft owner to complete, including the time reading and 
understanding associated safety information. This is in contrast to the 
estimated 30 minutes for the existing paper-based registration system.
    The fee to register a small UAS is $5, which is the same as the 
current fee for the paper-based registration system. FAA estimates that 
the $5 fee for small UAS will cover costs through the first few years 
of developing and implementing the system. Note that the forecast 
number of registrations is highly uncertain. Once the system has been 
in place and we have better information on expected usage and costs, 
the fee can be adjusted if necessary.
                          appropriate training
    Question. UASs are providing great opportunities across the 
economy. New innovations in the systems, their capabilities, and novel 
and practical uses are occurring daily. Economic sectors as diverse as 
agriculture, construction, journalism, health and tourism can and are 
benefiting from unmanned aircraft system capabilities.
    UASs capabilities in many instances offer users more cost 
effective, efficient, accurate and safer alternatives. However, drone 
use at the recreational, commercial and research levels will also 
impact public safety, personal privacy and the fair and sensible use of 
our skies. Thus, it is critical the FAA strike a balance that enables 
innovation and growth in this emerging sector while taking into account 
safety, I know the FAA has approved at least one institution in my 
State, Auburn University, to provide commercial UAS flight training. 
Auburn is currently doing so as part of the university's Aviation 
Center.
    I'm concerned that some commercial pilots will receive needed 
training at Auburn and other sites, but others will not. The new Part 
107 to Title 14 Code of Federal Regulations (14 CFR) would allow 
routine civil operation and create the safety rules of small UAS in the 
NAS. Currently, as I understand it, only a written exam that tests the 
operator's knowledge of the rules but not the operator's ability to fly 
an unmanned aircraft safely is required.
    Can you elaborate on FAA plans to ensure that commercial pilots are 
effectively trained? Is the FAA drawing on the experience and expertise 
at institutions like Auburn to help craft training criteria and 
curriculum for UAS flight schools? How do we balance public safety with 
the goal of getting more commercial pilots into the economic sectors 
that need them?
    Answer. The proposed Part 107 rule would allow routine use of 
certain small unmanned aircraft systems (UAS) in today's National 
Airspace System (NAS), while maintaining flexibility to accommodate 
future technological innovations. Many commercial operators are already 
operating small UAS aircraft under exemptions granted in accordance 
with Section 333 of the FAA Modernization and Reform Act of 2012 
(FMRA). The FAA recently granted an exemption to a university allowing 
the operation of UAS for the purposes of conducting training courses.
    The FAA took a risk-based approach in developing the airman 
certification requirements for small UAS remote pilots in the proposed 
rule, and in light of the contained nature of small UAS operations, 
opted not to propose specific training or flight experience 
requirements in order to be eligible for a certificate. The FAA 
requested public comment on the proposed Part 107 rule and received 
more than 4,500 comments. Many academic institutions provided comments 
on the proposed rule, all of which the FAA is considering during 
drafting of the final rule.
    The FAA is working to ensure that the final rule maintains the 
safety of our NAS, while not inhibiting innovation and growth of this 
sector of aviation.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
    Question. Has a lack of funding contributed to the FAA's delay in 
finalizing this rule? Please describe. Does the FAA plan to account for 
any shortcomings in next year's budget request?
    Answer. Federal rulemaking is designed to be a deliberative process 
and account for varying perspectives, motives, and economic interests. 
FAA received over 4,500 comments on the small UAS Notice of Proposed 
Rulemaking, which is an unusually large number of comments for a 
rulemaking. We are currently considering issues that were raised by the 
commenters.
    The President's Budget for fiscal year 2016 accurately reflects the 
Agency's needs as we know them today.
    Question. Total pilot sightings of UAS nearly tripled in 2015, with 
19 sightings in Illinois. Given these serious safety concerns, when 
will the final rule be promulgated for UAS integration in the national 
airspace?
    Answer. The FAA expects to finalize the rule in 2016.
    Question. To what extent are you working with the airports and 
airline industry in order to ensure airplanes are protected from UAS 
interference?
    Answer. The FAA signed a research agreement with CACI International 
to evaluate the efficacy of their UAS detection system. The FAA will 
work with its Federal partners and select airports to test this system 
while also ensuring that testing does not interfere with aircraft 
operations at these airports.
                                 ______
                                 
              Questions Submitted by Senator John Boozman
    Question. Mr. Administrator, according to CRS, remotely piloted 
aircraft have great potential to improve ``precision agriculture, which 
involves the use of detailed data on soils, crops, nutrients, pests, 
moisture, and yield to increase farm productivity.'' For example, these 
aircraft can help ``identify the precise locations of weed emergence or 
insect infestations, enabling farmers to respond in a targeted 
fashion.'' This cuts costs, saves on fuel and other inputs, reduces the 
environmental impact, and provides savings to farmers and to customers 
at supermarket checkout.
    Precision agriculture is just one example of how this technology 
can be beneficial. The United States must not allow our competitors to 
leap-frog us when it comes to integrating this technology. Safety and 
speed are both important. The FAA has got to get on the ball and make 
rapid progress on integration.
What will you do to make sure the use of these aircraft in agricultural 
        applications is safe, but also not overly burdensome?
    Answer. To date, the FAA has authorized approximately 250 Section 
333 exemptions allowing operators to conduct agricultural operations in 
the U.S. The conditions and limitations associated with these 
exemptions ensure a level of safety at least equal to that provided by 
existing rules; including restricting flights to within 400 feet of the 
surface and within visual line-of-sight to prevent conflicts with 
manned aircraft or non-participants on the surface. The exemption 
process includes an expedited public comment period in order to ensure 
the FAA considers the views of all stakeholders as they relate to 
safety and the public interest.
    Additionally, the FAA is working with PrecisionHawk, one of its 
Pathfinder partners, to explore operational concepts for agricultural 
UAS operations beyond the pilot's direct visual line-of-sight. The 
first phase of flight testing in support of this project started in 
mid-November 2015.
    Finally, the FAA has worked closely with other stakeholders, 
including Yamaha Corporation, U.S.A., to ensure that our operational 
certification processes related to agricultural dispensing (spraying) 
operations are adapted to unmanned aircraft, without compromising 
safety or creating an undue burden.
    Question. What efforts have you made to address safety concerns 
with respect to traditional agricultural aviators?
    Answer. Section 333 exemptions require operators to follow specific 
conditions and limitations when operating. For example, operators may 
not operate more than 400 feet above the surface or at night, and must 
remain clear and give way to all manned aviation operations and 
activities at all times. These and other operating conditions tailored 
to the nature of the operation ensure a level of safety at least equal 
to that provided under existing regulatory requirements.
                                 ______
                                 
              Questions Submitted by Senator Steve Daines
    Question. Mr. Huerta, thank you for testifying before the 
Appropriations Subcommittee on Transportation, Housing, Urban 
Development and Related Agencies. As discussed in the hearing, 
Montanans have a deep and primary commitment to protecting individual 
liberties, the right to privacy, and property rights, followed by the 
desire to not have our entrepreneurial nature impeded by government 
regulations.
    During our conversation, you mentioned the Federal Aviation 
Administration's (FAA) role is not to regulate the national airspace 
for its use, but rather its safety. Should the FAA become aware of 
illegal activity by either private or commercial operators in the 
national airspace, specifically violating laws with regards to privacy, 
what is the agency's course of action? How does the FAA facilitate law 
enforcement investigations?
    Answer. While the FAA has the responsibility for enforcing FAA's 
safety regulations and must exercise caution not to mix criminal law 
enforcement with our administrative safety enforcement function, we 
recognize that the public interest is best served by coordination and 
fostering mutual understanding and cooperation between governmental 
entities with law enforcement responsibilities.
    The FAA channels reports of unsafe or unauthorized UAS activity 
through our Regional Operations Centers which reach out to local law 
enforcement entities who are often in the best position to deter, 
detect, immediately investigate, and, as appropriate, pursue 
enforcement actions to stop those activities. The FAA has provided 
resources to State and local law enforcement agencies to support this 
partnership.
    Question. Often, breaches in safety and regulation stem from a lack 
of knowledge. The FAA along with other stake holders have provided 
resources, such as the B4UFYLY smartphone app. How will registration of 
unmanned aerial vehicles (UAV) further dissemination of information and 
ensure accountability for both private and commercial operators?
    Answer. The FAA expects registration to help build a culture of 
accountability for this emerging community of new airspace users. 
Having an aircraft marked and directly associated with personal 
information will encourage users to learn the rules before flying, and 
help the FAA and law enforcement identify unsafe operators more easily. 
Registration will also provide an additional avenue for the FAA to 
educate the UAS user community.
    We also discussed how hobbyists and commercial users of small UAS 
are currently treated differently. In the FAA Modernization and Reform 
Act of 2012 hobbyists are accommodated in Section 336, including 
manufacturers developing model aircraft, while other UAS used for 
commercial purposes have to apply for an exemption as specified in 
Section 333, despite often operating similar sized aircraft at similar 
altitudes.
    Question. Farmers, amongst other professions, can utilize UAVs to 
improve yield and efficiency, all within the confines of their own 
property, including below ``navigable airspace,'' which I understand to 
typically be an altitude of 500 feet. As a safety regulator, should 
small personal UAVs that provide an indirect commercial benefit be 
regulated the same as model aircraft, so long as they operate in 
accordance with the same safety parameters?
    Answer. Section 336 of the 2012 FAA Modernization and Reform Act 
specifies that model aircraft are operated only for hobby or 
recreation. All others are subject to FAA regulation. The FAA 
interprets use of a UAS for a person's business to not be a hobby or 
recreational use.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                          outreach activities
    Question. The FAA has reached out to local law enforcement 
authorities to make sure they have the resources they need to 
understand UAS and the national airspace.
    The FAA has posted extensive materials on its website for the 
enforcement community.
    Are you getting feedback from law enforcement authorities on your 
materials?
    Answer. The feedback from law enforcement (LE) authorities on the 
material the FAA has provided is positive. They appreciate the guidance 
and information documents, as well as the training sessions our agents 
have provided. FAA Law Enforcement Assistance Program (LEAP) outreach 
efforts have precipitated additional calls/questions from our LE 
partners regarding clarification of UAS restrictions, reports of 
possible violations, requests for guidance on establishing their own 
agency's UAS program and most frequently--clarification regarding 
authorities to charge violators. We are currently in the process of 
updating these documents with additional information and producing a 
pocket card for LE officers to carry as a handy reference in the field.
    The FAA has also been working directly with the Department of 
Justice.
    Question. Has this worked helped the FAA develop a strategy for 
working with local law enforcement on UAS issues?
    Answer. FAA's work directly with the Department of Justice has been 
focused on interaction between our respective Legal Counsels regarding 
evaluation of efficacy of current civil and criminal penalties. FAA 
LEAP agents liaison with numerous national LE agencies to include FBI, 
DEA and AUSAs leading to a better understanding of potential Federal 
violations, available resources, and information sharing, which has 
resulted in additional arrests and referrals.
    The FAA has also taken some important steps in reaching out the UAS 
consumers on safety issues. But the popularity of these aircraft is 
only growing, and the FAA needs to continue with outreach and 
education.
    Question. What are the FAA's next steps for expanding its outreach 
out to the public?
    Answer. The FAA is committed to sustained outreach efforts to 
inform the general public about safe UAS operations. In addition to the 
Know Before You Fly outreach partnership with industry and UAS 
stakeholders, the No Drone Zone campaign, and the beta testing of the 
FAA's B4UFLY mobile app, the FAA recently launched I Fly Safe, which 
features a pre-flight checklist for recreational operators. The FAA 
also has worked with UAS manufacturers and retailers to include product 
inserts in consumer packaging to reinforce the FAA's safety messages. 
More information can be found on the FAA's UAS site, www.faa.gov/uas.
    Question. In your experience, what have been the most effective 
ways of reaching out to the public?
    Answer. We use the broadest variety of outreach methods we can to 
reach many different types of unmanned aircraft operators. The FAA has 
produced several short videos reinforcing unmanned aircraft safety 
issues, which we have pushed out through Social Media and traditional 
web-based outreach tools. Web-tracking software has given us metrics 
that confirm that those videos have reached an enormous audience 
because of amplification through Social Media. We also have leveraged 
the reach of our industry partners to target messaging to the right 
audiences through venues such as the Consumer Electronics Show. 
Unmanned aircraft operators are generally younger than other aviation 
community members we communicate with, so we have explored many new 
ways of reaching out to this younger audience. We also have partnered 
with more than 30 airports to air our latest video on airport video 
screens in high-traffic locations.
                           research strategy
    Question. The FAA has many partners for its work on UAS research--
including the center of excellence, six test sites, NASA, and private 
sector companies working under Pathfinder agreements. But I am 
concerned that if the FAA does not provide clear guidance to these 
partners, then there could be a gap between the research being 
conducted and the problems that the FAA needs to solve.
    For example, the FAA needs to set standards for detect-and-avoid 
technology, and it needs to develop automation systems that air traffic 
controller can use to manage airspace with UAS.
    What are you doing to make sure that the FAA and its partners are 
conducting research that directly benefits UAS integration?
    Answer. The FAA's UAS Research Portfolio Manager oversees execution 
of the FAA's UAS-related research requirements to support integration. 
The FAA has provided the UAS Test Sites with a list of its research 
priorities to help focus their integration-related research activities, 
and is also funding several research tasks through the UAS Center of 
Excellence to support integration objectives.
    Last year, this subcommittee asked the FAA to include a research 
plan in the next UAS Roadmap, and we have reiterated this direction 
again this year.
    Question. When will we see a Roadmap that lays out a clear research 
agenda on UAS?
    Answer. The next version of the FAA's Civil UAS Integration Roadmap 
has been drafted and is currently in executive coordination. This 
process generally takes a few months. We anticipate that the Roadmap 
will be published early in 2016.
                        regulations on small uas
    Question. Publishing a final rule on small UAS has been a high 
priority for the FAA. You have said that the agency is hoping to 
finalize its regulations this spring.
    But the rule will likely include several provisions that the 
Administration will still need to implement. For example, under the 
proposed rule, the FAA would have to approve tests that UAS operators 
take before operating their aircraft, and TSA would have to develop a 
vetting process for operators.
    How long do you think it will take to implement the final 
regulations, given all the work that FAA and its Federal partners need 
to accomplish?
    Answer. We anticipate that implementing all of the provisions of 
the small UAS Rule will take a number of months. We expect to publish 
the final rule in 2016.
    Question. After the rule on small UAS is final, what will be the 
FAA's next highest priority to make progress on integrating UAS?
    Answer. The FAA is already exploring the next steps in UAS 
integration beyond the small UAS rule via the Focus Area Pathfinder 
Program. The Agency has executed research agreements with three 
companies to explore avenues for enabling safe UAS operations (1) over 
people; (2) within extended visual line-of-sight of the operator; and 
(3) beyond visual line-of-sight of the operator.
                uas training for air traffic controllers
    Question. Recent work by the Office of Inspector General identified 
weaknesses in FAA's training for air traffic controllers. Even with 
limited operations of large UAS, controllers simply need more training 
on how to manage these situations.
    The FAA said it planned to fully implement a corrective action plan 
this September.
    At the same time, the FAA is engaged in an effort to replenish its 
controller workforce. It recently hired about 1,400 new controllers, 
and has plans to hire even more. These new hires deserve adequate 
training.
    What is the FAA's progress in implementing its corrective action 
plan, and do the training materials at the FAA Academy address UAS?
    Answer. The FAA eLearning Management System (eLMS) has an 
electronic course, Unmanned Aircraft Systems, which has been embedded 
within the qualification training for all terminal and en route air 
traffic controllers. The purpose of this course is awareness only and 
it does not include reporting, phraseology, or requirements.
    We also have two computer-based UAS training courses created for 
controllers that are being used by air traffic facilities to conduct 
training for controllers on UAS operation. They are:
  --Unmanned Aircraft Systems (UAS): This course provides an 
        introduction to UAS and the impact they have on the National 
        Airspace System. The course will introduce terms associated 
        with UAS, background, certificates of waiver, UAS activity by 
        class of airspace, Lost Link, and challenges faced by increased 
        UAS activity.
  --Introduction to Unmanned Aircraft Systems: An introduction to UAS 
        basics, operations and the FAA's roles and responsibilities. 
        This course includes videos, graphics, and content and 
        knowledge checks to bring attention to the safety concerns and 
        issues regarding UAS.
    We have not completed the entire corrective action plan yet. 
However, we continue to work towards completion of the corrective 
action plan and believe that our current efforts between all 
stakeholders in the process will lead us to a training product that 
will continue to ensure safe and efficient operations of both manned 
and unmanned aircraft operations in the NAS. As part of these efforts, 
we are conducting a review of all current UAS training for controllers 
in order to establish a baseline from which to work when adding and 
updating training materials. We have also sent teams to air traffic 
control facilities in order to speak directly with management, 
controllers and representatives from the National Air Traffic 
Controllers Association to solicit their input on specific items needed 
to support UAS training for air traffic controllers. This collaborative 
effort will ensure that a quality product is developed that meets the 
needs of the controller workforce to complete its job at the highest 
levels of safety.
                          registration of uas
    Question. Just last week, Secretary Foxx announced a new 
registration requirement for UAS.
    You have already invited industry and government leaders to 
participate in a task force that will work through the details on how 
this registration process can be implemented.
    I'd like to hear what you think it will take to maintain the 
registry, making sure that it is accurate and up-to-date. How much will 
that cost?
    Answer. On December 14, 2015, the FAA published an Interim Final 
Rule announcing a new web-based aircraft registration process for small 
UAS, including small UAS operated as model aircraft. The FAA estimates 
that the total cost to government and small UAS owners for this web-
based registration system will be $56 million through 2020.
    Of this amount, $21.2 million is the cost to the Federal Government 
to develop and maintain the registry through 2020. (The balance of the 
cost--$34.4 million--reflects the value of registrants' time.)
                coordination with other federal agencies
    Question. The FAA and the Department of Defense signed a memorandum 
of agreement regarding operating UAS in the national airspace in late 
2007.
    I understand that in 2009, FAA and DOD, among others, established 
an interagency executive committee to further the progress of 
integrating unmanned systems into the national airspace. It is now 6 
years later.
    Could you describe what progress the interagency executive 
committee has made in integrating government-owned unmanned systems 
from DOD, DHS or others into the national airspace?
    Answer. Over the last several years, the FAA has signed Memoranda 
of Agreement (MOAs) and Memoranda of Understanding (MOUs) with several 
Federal agencies to further enable the use of government-owned UAS. As 
of 2015, agreements are in place with the Department of Defense (DOD), 
Department of Justice (DOJ), Department of Interior (DOI), the National 
Oceanic and Atmospheric Administration (NOAA), the Federal Bureau of 
Investigation (FBI), and the National Aeronautics and Space 
Administration (NASA) to facilitate UAS operations.
    Question. What lessons have you learned from the progress of 
interagency executive committee that you believe should be applied to 
regulating the recreational and commercial use of UAS?
    Answer. The Committee's Remote Operating Area (ROA) Working Group 
has supported commercial UAS expansion in the Arctic since 2013, as 
required by the FAA's 2012 Reauthorization. These commercial 
operations, which included the first commercial beyond visual line-of-
sight (BVLOS) UAS operation, resulted in a white paper title ``Lessons 
Learned from UAS Artic Operations in the Summer of 2013'' available at 
www.faa.gov/uas. The FAA has applied these lessons learned in managing 
its Focus Area Pathfinder Program, specifically Focus Area 3, which 
involves BVLOS operations for infrastructure inspections in rural 
areas. Insitu, one of the FAA's Arctic Partners, is one of the partners 
for this Focus Area and flew its type-certificated aircraft in New 
Mexico during the first phase of test flights. The FAA also leveraged 
both the communications plan and conditions and mitigations of the 
Certificates of Waiver or Authorization (COAs) used in the Arctic as 
the templates for these BVLOS Pathfinder test flights.
    Question. Since the development of rules and regulations for 
operating government-owned systems has not been rapid, what should we 
conclude about how long it will take to fully integrate UAS into the 
national airspace?
    Answer. Public aircraft (government) operations of UAS have always 
been permitted under the public aircraft statute and are subject to FAA 
regulations that apply to all aircraft regardless of operator. The 
increase in public aircraft operations of UAS has aided the FAA by 
increasing its knowledge of UAS operations overall. The FAA has worked 
with its Federal partners through organizations like the UAS Executive 
Committee to streamline the approval process for these operations. The 
FAA's final small UAS rule is a framework of regulations to govern the 
operation of non-governmental UAS in the national airspace, and is 
expected to be issued in 2016. Full UAS integration, which can be 
characterized by routine UAS operations beyond visual line-of-sight, 
will be realized on an incremental basis. Solutions for technology 
challenges such as detect and avoid and command and control will need 
to be in place for this to occur.
             faa's technology standards (detect-and-avoid)
    Question. I have heard some complaints that one reason why detect-
and-avoid technology lags is because there is no clear statement by the 
FAA of what it needs to ensure safe operations in the national 
airspace.
    How much of the problem is that technology development for detect-
and-avoid is lagging, or the fact that the FAA has not yet defined what 
it needs from detect-and-avoid systems to ensure safe operations?
    Answer. The FAA's objective in working through standards 
development organizations such as RTCA and ASTM International is to 
develop a set of technology standards that ensure safety while 
maintaining flexibility for industry innovation. Close coordination and 
cooperation between industry and government are necessary to ensure 
that these standards are informed by relevant research. Minimum 
Operational Performance Standards (MOPS) have been drafted for Detect 
and Avoid technology, and must now undergo extensive validation testing 
prior to finalization. The FAA expects to publish standards in 2016.
                    roadmap and implementation plans
    Question. The FAA has been working closely with MITRE to complete a 
detailed implementation plan for integrating UAS into the national 
airspace.
    The implementation plan will help the FAA manage its efforts, but 
it can also be an important tool to help Congress, industry and other 
stakeholders measure the FAA's progress in meeting key targets.
    Will the FAA make its Implementation Plan available to the public? 
If not, then why not?
    Answer. The FAA will continue to publish the Civil UAS Integration 
Roadmap annually. This public-facing publication provides an overview 
of accomplishments, describes the activities required to resolve 
integration-related technical challenges, outlines the key 
relationships across the government and industry to harmonize 
integration efforts, and details the FAA's strategy for near-term (less 
than 5 years) UAS integration efforts. The detailed implementation plan 
that MITRE has been working on is an internal planning document. Once 
this detailed internal plan is finalized in 2016, it will feed the 
annual development of the public Roadmap.
    If the implementation plan is not made public, then I would like to 
know how Congress and industry stakeholders would be able to judge 
FAA's progress. I understand that the FAA has also published a 
``Roadmap'' that was supposed to be updated every year. But it has not 
been published since it was first released 2 years ago.
    Question. If the implementation is not made public, then what tools 
would allow Congress and industry stakeholders to hold the FAA 
accountable?
    Answer. The FAA will continue to publish the Civil UAS Integration 
Roadmap annually, as mandated by Section 332 of the FAA Modernization 
and Reform Act of 2012. The Roadmap will be driven by the 
implementation plan and will contain a 5-year outlook of key activities 
that will advance the state of UAS integration into the Nation's 
airspace.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. Administrator Huerta, 2015 has been a historically 
intense wildfire season for Washington State. Wildfires burned across 
Washington, stretching our State's wildfire fighting resources thin and 
further devastating communities still recovering from last year's 
wildfires. The Okanogan Complex wildfire of 2015 was the largest 
wildfire in Washington State's history, more than doubling the acres 
burned by the previous record wildfire. Taken together, all wildfires 
in Washington State this season burned over one million acres and 
destroyed hundreds of homes across 13 counties and four federally-
recognized tribes. Over 11,450 firefighting and support personnel and 
1,569 Washington National Guard soldiers worked to combat these 
wildfires during their peak activity. And in August, the Okanogan 
Complex wildfire took the lives of three brave firefighters. Washington 
State is not alone in dealing with the tragedy of wildfires. An October 
30, 2015 report from the National Interagency Fire Center shows that 
over 53,700 fires burned in the United States this year, destroying 
more than 9.4 million acres of land.
    The Department of the Interior (DOI) and the U.S. Forest Service 
(USFS) have expressed a keen interest in utilizing unmanned aircraft 
systems (UAS) to fight these increasingly large and frequent wildfires. 
The Federal Aviation Administration (FAA) itself has acknowledged that 
UAS provide a wide variety of benefits for disaster response, including 
combating wildfires. What is your timeline for incorporating UAS into 
national wildfire rescue and response? What, if any, assistance do you 
need to expedite the process of ensuring that UAS can be deployed 
during the 2016 wildfire season?
    Answer. The FAA is continually working with other Federal agencies 
to enable appropriate government use of UAS for operations such as 
wildfire response. This includes processing Certificates of Waiver or 
Authorization (COAs), as well as emergency COAs, which can often be 
issued within hours when needed. In 2015, the FAA signed a Memorandum 
of Agreement with the Department of Interior to facilitate UAS 
operations.
    Question. One of the unique challenges that emergency responders 
face when combatting wildfires is the inability to see due to smoke and 
limited daylight hours. UAS can provide emergency responders with the 
ability to conduct fire mapping, suppression, and firefighter resupply 
missions twenty-four hours a day, seven days a week. Earlier this year, 
the FAA granted the DOI permission to use a UAS to survey and map the 
Paradise wildfire in the Olympic National Park in Washington State, 
which provided firefighters with vital information to assist in their 
efforts. I am grateful to the FAA for granting this request.
    Administrator Huerta, it is my understanding that in order to 
operate these UAS, a certificate of waiver or authorization (COAs) must 
first be issued by the FAA. What is the FAA's plan to expeditiously 
approve emergency COAs for the future use of UAS for wildfire 
suppression activities? Is the FAA establishing a uniform policy for 
the use of UAS in combatting wildfires so that a COA is no longer 
necessary?
    Answer. The FAA has a Memorandum of Agreement (MOA) with the 
Department of the Interior to allow certain operations using our ``COA 
via Notification'' procedures for operations that meet certain 
requirements such as using aircraft weighing less than 55 pounds at 
altitudes below 1,200 feet in Class G airspace. Under that process DOI 
notifies the FAA and publishes a Notice to Airmen (NOTAM) prior to 
operating. Additionally, the FAA has an established process for issuing 
emergency COAs which can be issued in a matter of hours. This process 
is available for emergency DOI operations that do not meet the terms of 
the MOA.
    Question. The DOI and the USFS are looking at utilizing larger 
systems in combating wildfires, such as the K-MAX helicopter, which has 
the capability to be operated both manned and unmanned. In a 
demonstration of this aircraft that FAA representatives attended last 
month, the K-MAX exceeded expectations. A report of the demonstration 
notes that the helicopter performed well in mountainous terrain and was 
able to deliver cargo and water with the same or better precision in 
the unmanned operating mode as it was in the manned operating mode. 
This technology would allow firefighters to combat wildfires around the 
clock, thus increasing their effectiveness.
    What infrastructure does the FAA need to manage the introduction of 
larger UAS into the national airspace and how will you meet these 
needs? Can you outline what steps the FAA is taking to develop 
certification standards to support the use of large UAS, and what is 
your timeline for doing so?
    Answer. The current infrastructure of our airspace system supports 
the introduction of larger UAS into the National Airspace System (NAS) 
on a limited scale. Additional technology requirements, such as 
standards for detect and avoid and command and control, must be matured 
to enable more routine operations of larger UAS.
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
    Question. The FAA has been far more reactive than proactive in 
addressing the challenges created by unmanned aircraft systems (UAS). 
The FAA's recent announcement on UAS registration requirement is a 
prime example because it came about as a result of the dramatic 
increase in UAS sightings over the recent months and the prediction 
that nearly one million UAS will be sold over the holidays. I strongly 
agree with Ranking Member Reed that the FAA needs to think about what 
kind of ``rules of the road'' need to be established for UAS. We need 
to think proactively rather than reactively about what the future 
airspace will look like with this evolving technology. This requires 
broad Federal, State, and local planning and enforcement, as well 
outside stakeholder input.
    What is the FAA doing to establish a long-term, comprehensive 
regulatory framework for UAS to operate safely--not just over the next 
few years, but over the next decade or 50 years?
    Answer. The FAA expects to finalize the small UAS rule in 2016. The 
FAA has also partnered with three Pathfinder partner companies to 
determine the next steps in UAS integration beyond the small UAS rule 
and to inform future rulemaking efforts. The technology to support the 
emerging UAS industry is evolving very rapidly, and accommodating 
longterm growth requires a flexible, performance-based regulatory 
framework. The FAA's Civil UAS Integration Roadmap provides a high-
level overview of the FAA's plans and objectives for the next 5 years 
and is updated annually.
    Question. The New York Police Department has become increasingly 
concerned about a potential terrorist attack by an armed UAS carrying 
explosives, firearms, or a chemical weapon. Furthermore, the Department 
of Homeland Security has warned police agencies that UAS ``could be 
used by adversaries...as part of an attack.'' On a single day in 
August, there were 12 episodes of small UAS interfering with airplanes 
or coming too close to airports. The series of alarming incidents near 
our Nation's largest airports, at major sporting events, and at the 
White House underscore a serious security vulnerability.
    Considering the threat posed by UAS to the security of our national 
airspace, what actions has the FAA taken (or will take), in conjunction 
with the Department of Homeland Security, to address this security 
risk?
    Answer. The FAA participates with interagency partners, including 
DHS, in multiple forums to coordinate and share information on current 
and emerging UAS threats and technology. The FAA is coordinating with 
DHS in the evaluation of CACI International's UAS detection system in 
proximity to airports.
    The FAA is also an active member of the DHS-led interagency and 
intergovernmental effort to coordinate and integrate incident response 
planning and mitigation options as a whole-of-community approach to 
address possible UAS threats. While this community effort is focused 
specifically on threat concerns to the National Capital Region (NCR), 
the resulting process/procedure improvements and technology solutions 
will have broader applicability to security of U.S. critical 
infrastructure and the National Airspace System (NAS).
                                 ______
                                 
               Questions Submitted to Hon. Michael Huerta
              Questions Submitted by Senator Thad Cochran
                   developing a coordinated strategy
    Question. Earlier this year, the Federal Aviation Administration 
established a Center of Excellence (COE), a consortium of universities 
headed by Mississippi State University, to lead unmanned aircraft 
system research efforts. The Center is tasked with identifying and 
researching issues critical to the integration of unmanned aircraft 
systems into the Nation's airspace.
    Please describe any other FAA programs other than the Center of 
Excellence that conduct research on unmanned aircraft systems?
    Answer. The FAA has several options for conducting research related 
to UAS operations, including working through the FAA William J. Hughes 
Technical Center, the UAS Center of Excellence, the UAS Test Sites, or 
other academic or industry partners. The FAA has provided the UAS Test 
Sites with a list of its research priorities to help focus their 
integration-related research activities, and can directly fund research 
through one or more of them. Operational data and research results 
collected from the Test Sites is analyzed at the FAA's Technical 
Center, which also performs UAS research in the areas of detect and 
avoid, system safety, system certification, and sensor data fusion. In 
addition, the FAA has partnered with several companies through its 
Pathfinder Program to explore operational concepts beyond the scope of 
the proposed small UAS rule, as well as UAS detection at airports.
    What is the FAA doing to integrate the Center of Excellence with 
any of the above mentioned research activities?
    Answer. The FAA Technical Center is responsible for executing the 
FAA's UAS-related research requirements to support integration. The 
Center of Excellence (COE) is one of several research partners that the 
Tech Center may use, depending on capability and need. The COE research 
areas are expected to evolve over time, but initially include detect 
and avoid technology, low-altitude operations, control and 
communications, and training and certification of UAS pilots and other 
crewmembers, in addition to other areas.
    Question. Please describe how the FAA is facilitating coordination 
between the Unmanned Aircraft Systems Aviation Rulemaking Committee and 
the Center of Excellence?
    Answer. The UAS Aviation Rulemaking Committee's (ARC) role is to 
provide recommendations to the FAA to support UAS integration efforts. 
The FAA considers these recommendations when developing research 
requirements to be executed through its research programs, which 
include the Center of Excellence.
             proliferation of unmanned aircraft operations
    Question. On August 21, 2015 the FAA released a report from pilots, 
air traffic controllers, and citizens cataloging encounters with 
unmanned aircraft. The report covers November 13, 2014 through August 
20, 2015 and cites 765 incidents.
    What steps are being taken to figuring out ways to quickly and 
safely integrate unmanned aircraft technology?
    Answer. UAS must be introduced to the NAS incrementally to ensure 
the safety of people and property both in the air and on the ground. 
The FAA is expanding commercial UAS operations through its Section 333 
exemption process, and has initiated research partnerships with several 
Pathfinder companies to explore the next steps in UAS operations.
    Question. Is our Committee providing resources at a rate sufficient 
to effectively solve this problem?
    Answer. The President's Budget for fiscal year 2016 accurately 
reflects the Agency's needs as we know them today.
                                 ______
                                 
               Questions Submitted to Captain Tim Canoll
              Questions Submitted by Senator Brian Schatz
    Question. As you mentioned in your written testimony, ALPA is 
concerned about the impact of small UAS on an airline aircraft if there 
were a collision. Pilots have reported a surge in close calls with UAS: 
nearly 700 by mid-August of this year as compared to 238 in all of 
2014. With the use of UAS rapidly expanding in the commercial, 
government, and hobbyist communities, the FAA needs to take immediate 
action to keep the public safe.
    It is clear that ongoing educational efforts for recreational 
operators is insufficient. What are the top 3 actions that you 
recommend that the FAA take immediately--today--to ensure the safety of 
air transportation and the public?
    Answer. As I testified on October 28, there are many actions that 
the FAA can immediately take to ensure the safety of air 
transportation. ALPA has identified four areas of action that we 
believe need to be accomplished in the very near term. Because the FAA 
expects upwards of 1 million UAS to be purchased in the upcoming 
holiday season, ALPA encourages the FAA to:
  --Educate: ALPA recommends that the FAA 1) finalize and publish its 
        UAS mobile application, which provides UAS operators with 
        guidance and information needed to operate UAS safely, and 2) 
        implement broad public-awareness campaign that includes top-
        tier advertising on the Nation's most popular websites, 
        newspapers, and television and radio stations. .
  --Require Registration: ALPA recommends that, starting before 
        November 20, 2015, the FAA require aircraft registration at the 
        point of sale. Gathering basic information about the identity 
        of the individual purchasing the UAS not only allows law 
        enforcement authorities to identify the owner if the UAS were 
        to be involved in a problem, but it helps make clear the 
        serious nature of operating a UAS in the NAS and the 
        responsibility to safeguard public safety. The registration 
        process and educational components should be tied together. 
        That will help increase awareness of the UAS rules and safe 
        operating practices.
  --Implement Technology: The FAA has announced several pathfinder 
        projects that utilize technology for tracking unsafe UAS 
        operations. The FAA has indicated that one of the pathfinder 
        technologies has the capability to pinpoint the location of the 
        UAS pilot. In the near-term the FAA should deploy the 
        technology at multiple airports for evaluation purposes.
  --Issue Penalties and Bolster Enforcement: If the FAA intends to rely 
        on first responders to ensure UAS regulatory compliance, the 
        agency should provide needed information to local, regional, 
        State, and national law-enforcement officials. Providing law-
        enforcement officials with information that defines unlawful 
        operations, provides peer-to-peer contact information, 
        clarifies their regulatory authority, and other pertinent 
        information is critical for an effective use of first responder 
        resources.
    Question. You testified that ALPA supports providing the FAA 
definitive authority to regulate recreational users. Please discuss the 
necessity for the FAA to have this clear authority and explain why not 
having this authority is endangering the public's safety.
    Answer. In the most recent FAA reauthorization, the agency was 
limited by congress in its ability to ``promulgate any rule or 
regulation regarding a model aircraft.'' However, an interpretation 
published by the FAA on October 22, 2015 indicates that model aircraft, 
unmanned aircraft and any other flying ``contrivance invented, used, or 
designed to navigate, or fly in the air'' are considered as aircraft by 
the FAA, and are subject to rules and regulations as established by the 
FAA.
    In order to ensure the timely establishment of regulations for 
hobby and recreational UAS operators, ALPA suggests that congress 
remove any barriers that may cause the FAA to hold back from exercising 
its full regulatory authority. Along with the removal of any barriers 
to regulating model or hobby UAS operations, the FAA should be provided 
with the necessary resources to ensure adequate levels of staffing are 
available. The FAA should be given the tools and authority to utilize 
whatever resources are necessary to ensure adequate regulatory 
oversight and enforcement of this quickly growing segment of the 
aviation industry.

                         CONCLUSION OF HEARINGS

    Senator Collins. Senator Reed, do you have any closing 
comments?
    Senator Reed. No, ma'am. Thank you.
    Senator Collins. Thank you.
    This hearing is now adjourned. Thank you.
    [Whereupon, at 11:25 a.m., Wednesday, October 28, the 
hearings were concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]
</pre></body></html>
